<html>
<title> - JUSTICE IN THE INTERNATIONAL EXTRADITION SYSTEM: THE CASE OF GEORGE WRIGHT AND BEYOND</title>
<body><pre>[Joint House and Senate Hearing, 112 Congress]
[From the U.S. Government Publishing Office]





                      JUSTICE IN THE INTERNATIONAL
                    EXTRADITION SYSTEM: THE CASE OF
                        GEORGE WRIGHT AND BEYOND

=======================================================================

                                HEARING

                               before the

            COMMISSION ON SECURITY AND COOPERATION IN EUROPE

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                               __________

                             JULY 11, 2012

                               __________

                       Printed for the use of the
            Commission on Security and Cooperation in Europe

                             [CSCE 112-2-8]



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]





                   Available via http://www.csce.gov
                                  ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

94-519 PDF                     WASHINGTON : 2015 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001
                                             
                   
                   
                   
                   
                   
                   


            COMMISSION ON SECURITY AND COOPERATION IN EUROPE

                    LEGISLATIVE BRANCH COMMISSIONERS

               HOUSE

                                                   SENATE

CHRISTOPHER H. SMITH, New Jersey,    BENJAMIN L. CARDIN, Maryland,
Chairman                             Co-Chairman
JOSEPH R. PITTS, Pennsylvania        SHELDON WHITEHOUSE, Rhode Island
ROBERT B. ADERHOLT, Alabama          TOM UDALL, New Mexico
PHIL GINGREY, Georgia                JEANNE SHAHEEN, New Hampshire
MICHAEL C. BURGESS, Texas            RICHARD BLUMENTHAL, Connecticut
ALCEE L. HASTINGS, Florida           ROGER F. WICKER, Mississippi  
LOUISE McINTOSH SLAUGHTER,           SAXBY CHAMBLISS, Georgia
New York                             MARCO RUBIO, Florida
MIKE McINTYRE, North Carolina        KELLY AYOTTE, New Hampshire     
STEVE COHEN, Tennessee              
          

                     EXECUTIVE BRANCH COMMISSIONERS

                 MICHAEL H. POSNER, Department of State
               MICHAEL C. CAMUNEZ, Department of Commerce
               ALEXANDER VERSHBOW, Department of Defense

                                  [ii]






















                      JUSTICE IN THE INTERNATIONAL

                    EXTRADITION SYSTEM: THE CASE OF

                        GEORGE WRIGHT AND BEYOND

                              ----------                              

                             July 11, 2012
                             COMMISSIONERS

                                                                   Page
Hon. Christopher H. Smith, Chairman, Commission on Security and 
  Cooperation in Europe..........................................     1
Hon. Steve Cohen, Commissioner, Commission on Security and 
  Cooperation in Europe..........................................     3

                               WITNESSES

Ann Patterson, Daughter of Walter Patterson......................     4
R.J. Gallagher, Retired FBI Special Agent........................     7
Jonathan M. Winer, Senior Director, APCO Worldwide, Washington, 
  DC, and Former U.S. Deputy Assistant Secretary of State for 
  International Law Enforcement..................................    11
Granddaughter of Walter Patterson................................    21
Granddaughter of Walter Patterson................................    22

                               APPENDICES

Prepared statement of Hon. Christopher H. Smith..................    28
Prepared statement of Hon. Benjamin L. Cardin....................    29
Prepared statement of Ann Patterson..............................    30
Prepared statement of R.J. Gallagher.............................    33
Prepared statement of Jonathan M. Winer..........................    36
Materials for the Record.........................................    42

                                 [iii]

 
                      JUSTICE IN THE INTERNATIONAL
                    EXTRADITION SYSTEM: THE CASE OF
                        GEORGE WRIGHT AND BEYOND

                              ----------                              


                             July 11, 2012

           Commission on Security and Cooperation in Europe

                                             Washington, DC

    The hearing was held at 2 p.m. in room 2203, Rayburn House 
Office Building, Washington, DC, Hon. Christopher H. Smith, 
Chairman, Commission on Security and Cooperation in Europe, 
presiding.
    Commissioners present: Hon. Christopher H. Smith, Chairman, 
Commission on Security and Cooperation in Europe; and Hon. 
Steve Cohen, Commissioner, Commission on Security and 
Cooperation in Europe.
    Witnesses present: Ann Patterson, Daughter of Walter 
Patterson; R.J. Gallagher, Retired FBI Special Agent; Jonathan 
M. Winer, Senior Director, APCO Worldwide, Washington, DC, and 
Former U.S. Deputy Assistant Secretary of State for 
International Law Enforcement; Granddaughter of Walter 
Patterson; and Granddaughter of Walter Patterson.

HON. CHRISTOPHER H. SMITH, CHAIRMAN, COMMISSION ON SECURITY AND 
                     COOPERATION IN EUROPE

    Mr. Smith. The Commission will come to order. And I want to 
thank and welcome all of you to this very important hearing of 
the Commission on Security and Cooperation in Europe.
    In September of 2011, hopes were raised high when the FBI 
announced that George Wright, a fugitive for over 41 years, had 
been located in Portugal and had been taken into custody 
pursuant to a provisional arrest request from the United 
States. There were hopes for accountability, some justice and, 
for the family he murdered in Wall Township in 1962, for at 
least some closure to a nightmare.
    In 1963 George Wright was convicted in connection with a 
gas station robbery, during which Walter Patterson, a decorated 
World War II veteran and Bronze Star recipient--and that's him 
in that picture, obviously--was beaten and shot to death. 
Wright was subsequently sentenced to 15 to 30 years, but in 
1970 escaped from Leesburg State Prison, now renamed Bayside 
State Prison, located in New Jersey. In 1972 he and four other 
men hijacked a Detroit-to-Miami flight. They flew the plane to 
Algeria, where Algerian authorities allowed them to disappear.
    In 1976 four of the hijackers were located and arrested in 
France. France refused to extradite them to the United States, 
but tried them in France instead. Following convictions, two of 
the hijackers spent a mere three years in prison, and two 
others spent two and a half years. George Wright, however, was 
not among those caught. For 41 years George Wright's 
whereabouts were unknown, and he built a life based on lies and 
deception.
    When George Wright was located in Portugal last year, the 
Patterson family naturally thought that, as a convicted felon 
and prison escapee, he would be speedily returned to the United 
States to finish serving the sentence he received for the 
murder of Walter Patterson. Portugal, after all, is a close 
ally, committed to the rule of law and has a long-standing 
extradition agreement with the United States. Shockingly, a 
Portuguese court rejected the United States' extradition 
request last November, and efforts to reverse that decision 
have now apparently ceased. The Patterson family, so deeply 
wounded by the murder of their beloved family member and then 
by the murderer's escape--and now are bewildered and angry at 
Portugal's refusal to extradite George Wright.
    Today's hearing will examine what happened in this case--
and it is the first in a series--and what can be done to 
promptly return Wright to an American prison and the broader 
question it raises about the international extradition system.
    On behalf of the Commission, I welcome Ann Patterson, 
Walter Patterson's daughter, who along with her family have 
suffered irreparable harm from the brutal violence committed 
against her beloved father by George Wright. Words are 
inadequate to convey my and the Commission's abiding respect, 
empathy and condolences to you and your family on your 
excruciating loss and my disappointment, which I share with 
you, in Portugal.
    Ann will testify in part that the $70 that George Wright 
and Walter McGhee stole wasn't enough. They had to beat my 
father, she says, beyond recognition. George Wright was 
identified by the imprints of the stock of his gun on my 
father's skin, she'll tell us. Her testimony is riveting. Her 
testimony opens up and gives us an insight into the enormous 
pain that she and the family have suffered.
    The Commission will also hear from R.J. Gallagher, a 
retired FBI agent who has done extensive work on the case, 
breakthrough work on the case, and has had an extraordinary 
career with the FBI. So we thank you, the Commission, for your 
service on behalf of all Americans for the wonderful law 
enforcement work you have done over the course of your 
lifetime.
    Finally, we will hear from Jonathan Winer, a senior 
director of APCO Worldwide, Washington, D.C., and former U.S. 
deputy assistant secretary of state for international law 
enforcement. And also, he worked for 10 years for Senator 
Currie and has been tenacious working on law enforcement 
issues, particularly at State.
    On George Wright, Mr. Winer exposes the utter 
indefensibility of the Portuguese court's decision not to 
extradite George Wright; why Portugal can still do the right 
thing by revoking his citizenship, which he secured through 
immigration fraud; and how the U.S. can and must pursue Wright 
through INTERPOL, and many other very important recommendations 
that I hope that the State Department, the Justice Department, 
Congress, all of us take to heart.
    Finally, let me note that the Commission had requested a 
representative of the Obama Administration to be here to answer 
questions of what has and what can be done to bring George 
Wright to justice. The Commission was informed that Bruce 
Swartz, Deputy Assistant Attorney General of the Criminal 
Division of the Department of Justice, wasn't available for 
today's hearing. So on behalf of the Commission, I will reissue 
our request for Mr. Swartz or any other appropriate official 
from the administration to testify at a subsequent hearing.
    In like manner, the Commission invited the Portuguese 
ambassador, Nuno Brito, who was also unavailable due to a 
scheduling conflict. And like with Mr. Swartz or whoever the 
administration would like to send, the Commission will request 
Ambassador Brito's testimony at a follow-up hearing that will 
be scheduled around his availability as well.
    Again, I'd like to now turn to my good friend and colleague 
Mr. Cohen and ask for any opening comments that he might have.

  HON. STEVE COHEN, COMMISSIONER, COMMISSION ON SECURITY AND 
                     COOPERATION IN EUROPE

    Mr. Cohen. Thank you, Mr. Chair.
    I'm interested in hearing the testimony of the witnesses. 
And to Ms. Patterson, I express my regrets. It's been a long 
time, but to lose your husband--and the person who commits such 
a crime should be held responsible. And what he did in escaping 
and hijacking that plane is reprehensible as well.
    Reading the record, there's obviously some positions that 
the Portuguese government is taking that seems to be adverse to 
what I think is common sense in international law and Helsinki 
Commission accords. And I hope that we can get to the bottom of 
the situation. But that what he did to your husband is an 
offense, and air piracy and hijacking, all of which should be 
extradition offenses. And the Portuguese government, I 
believe--don't want to pre-judge it, but I believe--should 
extradite him so that he answers for the crimes he has 
committed and the harm that he's done.
    So I look forward to the testimony and appreciate Mr. Smith 
bringing this hearing, as he always does. And this is 
bipartisanship. While the Obama Administration may not be here, 
I assure you that it's not because they're not interested and 
this is bipartisan and that we're concerned about it as well.
    Thank you, and I yield back the balance of my time.
    Mr. Smith. Thank you, Mr. Cohen, for your comments.
    And I'd like to now introduce our witnesses, beginning 
first with Ann Patterson. And you know, when we asked how she 
would like to be described, she just said daughter of Walter 
Patterson. And frankly, that is enough, you know, a woman who 
has children and grandchildren, some of whom are with us today, 
and a woman, like her family, has suffered irreparable harm.
    We'll then hear from Mr. Gallagher, who I mentioned earlier 
is a former FBI special agent from 1986 to 2011, retired just 
short of the 25 years. And he also served as an officer for the 
United States Navy for five years.
    And then, Jonathan, you'll be next, if you would. And I 
just would point out a couple of things from his resume. He 
actually received a distinguished honor from the Secretary of 
State, Madeline Albright, for his service in the State 
Department. The award stated that he created the capacity of 
the department and the U.S. government to deal with 
international crime and criminal justice as important foreign 
policy functions and that, quote, ``the scope and significance 
of his achievements are virtually unprecedented for any single 
official.''
    So three very, very distinguished people.
    And Ann, if you could proceed.

          ANN PATTERSON, DAUGHTER OF WALTER PATTERSON

    Ms. Patterson Mr. Chairman, my name is Ann Patterson, and I 
am the daughter of Walter Patterson. My father was robbed, 
brutally beaten, and shot in his gas station in Wall Township, 
New Jersey, on November 23rd, 1962. He died of his injuries on 
November 25th, 1962. I was 14 years old, and my sister Kaye was 
13.
    My father was a quiet, sensitive person. The gas station 
was his American dream, and he was so happy to be able to have 
his own business. He worked 16- to 18-hour days to support our 
family. Daddy's name is also on the Patterson honor roll of 
soldiers, part of a family that has fought in all our country's 
wars. At age 21, he went to Europe and served our country for 
four years during World War II. He was a TEC 5 and a truck 
driver/mechanic and was awarded the Bronze Star for meritorious 
service.
    It was the day after Thanksgiving, and Daddy had come home 
for supper. It was about 4:30 when he got into his truck to go 
back to work. I stood at the kitchen window waving goodbye, and 
that was the last time I saw him alive. About five hours later 
the phone rang, and I answered it. Aunt Jennie said, Walt's 
been shot, and I screamed, no, no, no, and called my mother to 
the phone. I was crying, told my sister, and she started 
crying.
    My mother was not well. She called Uncle Charles to take 
her to the hospital.
    When she got there, she couldn't recognize my father. She 
later told us they had beaten him to a pulp. The doctor 
operated from about 10:30 p.m. to 6:30 a.m. and told my mother 
he thought he had gotten all the bone fragments. When I asked 
her what Daddy had to say, she told me that he couldn't talk 
because his jaw was wired shut. He was wild with pain and could 
not be given anything for it since he had head injuries. He had 
to be restrained in the bed. The doctor told my mother that 
seizures were to be expected with this type of injury, and 
Daddy had a seizure on Saturday night.
    Kaye and I had been scared to death to stay home alone on 
Friday night, so we rode to the hospital with Uncle Dick and 
Aunt Ginny as they took my mother to see Daddy on Saturday 
night. Aunt Ginny asked my mother if she had told us what we 
were going to see, but my mother did not allow us to see Daddy, 
and we waited in the car. Daddy was in critical condition, and 
no one except immediate family was allowed in. The doctor told 
my mother that if Daddy came through this, he would be a 
vegetable and need a lot of care.
    On Sunday evening the doctor was talking to my mother in 
the hallway about my father's condition when the nurse came to 
them and told them he had passed away. They allowed my mother 
to spend some time alone with him. When she came home, Uncle 
Dick and Aunt Ginny were each holding her arms and helping her 
to the house. I looked at Kaye, and I said, Daddy died.
    The viewing was Tuesday, and the funeral home asked for a 
photo of Daddy so they could make him look like the picture. 
Does that sound odd to you? My father was unrecognizable in his 
casket. His wavy black hair with a touch of gray was replaced 
with straight black hair combed back. His face was all uneven 
and caked with makeup. I knew he was my Daddy by looking at his 
hands.
    The $70 that George Wright and Walter McGhee stole wasn't 
enough. They had to beat my father beyond recognition. George 
Wright was identified by the imprints of the stock of his gun 
on my father's skin. If there had not been such a beating, the 
doctors could have operated on the bullet wound to the abdomen, 
and it is quite possible that Daddy would still be with us 
today.
    For Kaye and me, the nightmare was just beginning. Since 
our mother was not well, she could not take care of us. We were 
told later that we would be sent to Clinton, a home for wayward 
girls. I later found out that Clinton was in fact a prison for 
girls. There is something wrong with sending the victims to 
prison while the criminals do not have to be incarcerated for 
their actions. I thank God that Uncle Dick stepped in to take 
care of us.
    Our mother was very ill with a heart condition, and her 
death was hastened by losing Daddy. She passed away 15 months 
later on February 26, 1964, leaving Kaye and me orphaned. In 
our house lived my mother's aunt and uncle, both of whom passed 
away during that 15-month period. In just over a year we 
experienced the deaths of all four people we lived with and 
lost our home. We were robbed of normal teenage years. There 
was no counseling available in 1962. We were left to deal with 
all this sorrow on our own. We tried to be strong for our 
mother while she was still alive.
    It has not been easy to relive all these events during the 
past 10 months. The FBI victims specialist suggested I see a 
counselor, which was beneficial to me. One of the problems that 
came out was the nightmares that I suffered from for years 
after my father's death. The counselor said that I had had 
post-traumatic stress after I described the nightmares to her. 
I also developed asthma and colitis within a few weeks of 
Daddy's death.
    The premeditated actions of the four individuals involved 
in my father's murder have negatively impacted five generations 
of the Patterson family. I have already spoken about my parents 
and my sister and me. My mother's uncle who lived with us 
refused food when he learned of this tragedy. He said, I don't 
want to stay in a world where this is allowed to happen. And he 
died four months later. My grandfather never spoke my father's 
name again without crying and told me they didn't have to beat 
him up so bad. My father's seven grandchildren were deprived of 
a loving grandfather, and they are angry at the injustice 
exhibited in the past 10 months.
    But the saddest to me are the hurt reactions of my father's 
14 great-grandchildren. One of them saw the clip on TV of the 
capture and asked, what is wrong with people, not knowing it 
was about her great-grandfather. Another one curled up in a 
corner of the couch and, crying, asked if he could escape 
again. Five generations of fear and hurt are five too many.
    George Wright cannot erase his life of crime. He is 
fraudulently a Portuguese citizen. Four aliases do not change 
the fact that he was born George Edward Wright in the United 
States of America and committed crimes during his years here. 
When he chose the crime, he also chose the punishment, as they 
go hand in hand. George Wright did not give my father a choice 
on November 23rd, 1962, and so he should not have a choice 
about not serving his sentence. He does not owe Portugal time; 
he owes the United States.
    George Wright is not sorry for what he did. There has been 
no apology to the Patterson family. On the contrary, he has 
made this all about himself and basked in the limelight. To 
want to profit from a book and movie highlighting his heinous 
acts against the Patterson family is a slap in the face. He is 
not the victim here; we are. George Wright is a convicted 
murderer who lived a life of violence, then fled and lived a 
life of lies. Now his past has caught up with him, and he needs 
to come back here and serve his sentence.
    In light of all the recent media coverage, I have been 
approached by many people who have expressed their disgust 
toward this man and this situation. I feel it is a disgrace 
that our justice system has failed in assuring a proper 
punishment for this crime. This whole case sets a terrible 
precedent for this country, both here and worldwide. It is a 
negative towards decent citizens and a positive for criminals.
    The failure of extradition has affected us in the following 
ways: one, fear of a known criminal on the loose; two, fear of 
reprisal from criminal--both of these fears are now 50 years 
long--three, makes a mockery of the crime against my father--
did his life matter; four, has perpetuated our pain and loss; 
five, loss of any kind of confidence in the criminal justice 
system, from the local branch which gave too lenient a sentence 
to the state branch that put a convicted murderer on a minimum 
security work farm to the federal branch who have backed down 
to Portugal in the matter of extradition. The case was dropped 
before the final appeal was filed. It is one thing to do all 
you can, another to give up before you exhaust all avenues.
    I have asked if there are any other avenues of justice such 
as withholding aid and have not been given an answer.
    Don't we have a right to seek justice for our father? Our 
family has been emotionally affected by injustice in the 
following ways: One, no closure--this is still an emotionally 
draining, open wound; two, we have family members and friends 
across this entire nation who are appalled at the injustice of 
trying to obtain justice; three, we are not happy that George 
Wright wants to do a book and a movie and capitalize on his 
inhumane treatment of our father; four, we were extremely upset 
when we read in the newspaper that the final appeal had been 
dropped--I was told that I would be notified of any decision so 
that I wouldn't be blindsided upon learning something from the 
media--five, on a personal level, this has split my family in 
two. Some members support efforts to obtain justice, and some 
cannot emotionally face the details of this crime to even talk 
about it.
    What can be done? Here are my suggestions: Number one, 
reinstate the death penalty for criminals convicted of heinous 
crimes. Such a strong penalty may act as a deterrent. Two, put 
pressure on Portugal. I understand there is an extradition 
treaty from 1907 to this effect. Three, do not send any 
financial aid to Portugal. Four, form a committee at the state 
level to double-check paper work so that errors like this can't 
happen again. Five, support and pass Illinois Senator Richard 
Durbin's Bringing Fugitives to Justice Act. And six, nothing 
that any of us say or do will bring my father back, but if we 
can look ahead and help the countless number of children who 
are similarly affected or will be affected by senseless crimes, 
then all of our efforts will not have been done in vain.
    There is no conclusion to my story. It has not occurred 
yet, for the conclusion now rests in the hands of the 
politicians. The FBI and the U.S. Marshals have done their job 
in locating this fugitive, and we thank them. I have done all I 
can by telling about our family events from November 23rd to 
November 25th, 1962, and the impact of this despicable crime. 
On behalf of the Patterson family, I ask you to please bring 
justice for the untimely death of my father, Walter Patterson. 
Thank you.
    Mr. Smith. Ms. Patterson, thank you very much for that 
extraordinarily moving testimony and the tenacity that you have 
brought to trying to bring this man to justice, and for 
thanking the FBI and the marshal service for the extraordinary 
work they've done in tracking him down. We need to do our job, 
those of us in the executive as well as, in our case, the 
legislative branch. And I thank you for that.
    I'd like to now--we do have a vote on right now, but we do 
have some time. Mr. Gallagher, if you could proceed with your 
testimony and--thank you.

           R.J. GALLAGHER, RETIRED FBI SPECIAL AGENT

    Mr. Gallagher. Yes. Good afternoon. My name is R.J. 
Gallagher. I'm a retired FBI agent. And at the risk of some 
redundancy, I'd like to acquaint members with the background of 
George Wright.
    On Friday night of Thanksgiving weekend in 1962, George 
Wright and two others robbed and mortally wounded Walter 
Patterson, a service station proprietor in Wall Township, New 
Jersey. That night, Wright and his co-defendants wore nylon 
stockings over their faces and wore gloves on their hands. 
Wright carried a sawed-off rifle, his co-defendant a cheap 
handgun. They brought with them white adhesive tape for binding 
of their victims. Earlier that same day, Wright and his co-
defendants had cut down the rifle, bought ammunition and had 
test-fired the weapon. They also had driven around the Jersey 
shore area looking for prospective places to rob.
    At around 9:30 p.m. that night, when Wright and a co-
defendant entered Walt Patterson's Esso gas station on Route 
33, they were committing their second armed robbery of the 
night. This robbery, the one about to take place, unlike the 
first did not go as planned. For it would appear that Walt 
Patterson was not sufficiently compliant or quick enough to the 
demands of the robbers, and a fight ensued.
    Wright and his co-defendant repeatedly rained blows to the 
head and shoulders of Walter Patterson with their weapons. At 
some point the handgun carried by the co-defendant fired, and 
Walter Patterson was struck in the abdomen. He fell to the 
floor. The two robbers fled, taking with them about $70. Both 
robbers were very aware that their victim was shot and wounded, 
yet they left him alone on the floor of his gas station. They 
did not place an anonymous call to anyone to get Walter 
Patterson medical attention. Instead, using the money proceeds 
from their two robberies that evening, they went out and 
partied. They dined, they drank and they played pool until 2:00 
or 3:00 in the morning.
    Investigation over the next two days led to the 
identification and arrest of the persons involved in the 
robbery/murder. This included George Wright. All the physical 
evidence was recovered: guns, stocking masks, gloves, 
ammunition. All the arrested gave full confessions.
    On January 28th, 1963, Wright pled ``non vult'' to a murder 
indictment. By this plea Wright did not contest his guilt, and 
he waived his right to trial. This plea allowed Wright to 
receive a 30-year maximum sentence, as opposed to life had he 
gone to trial and been convicted. On February 15th, 1963, 
Wright was sentenced to a prison term of not less than 15 years 
and not more than 30 years.
    At this point I'd like to just take a break from Wright's 
crime chronology and state that I have read in numerous media 
accounts subsequent to Wright's arrest that Wright has stated 
that since he did not fire the shot that killed Walter 
Patterson, he is not guilty of the crime of murder. First, both 
of Wright's co-defendants stated that in the immediate 
aftermath of this crime, Wright told them he had fired. Nine 
bullets from the sawed-off rifle Wright carried were found on 
the floor of the service station.
    The presiding judge at the time of Wright's sentencing went 
on record stating that these nine rounds on the floor indicated 
Wright's intentions to--Wright's intention and attempt to fire 
his weapon but that the weapon had malfunctioned.
    But regardless of Wright's intent, attempt or belief that 
he had fired or that he had not fired, it was the law of the 
state of New Jersey that if a person committing a robbery kills 
another or death ensues during the robbery, that person is 
guilty of murder.
    I have also read that there is to be some mitigation for 
the crime when considering the age of George Wright, as he was 
19 years old at the time. Here it should be noted that Walter 
Patterson, his victim, was barely a much riper 21 when he 
entered the U.S. Army shortly after Pearl Harbor. Walter 
Patterson then served in the Army for near four years until the 
war was over. Of his time in the Army, 2 and a half years was 
spent over in Europe in the eastern theater of operations.
    Back to the Wright timeline: On August 22nd, 1970, Wright 
and others escaped from the New Jersey State Prison. At this 
time Wright had served seven years, seven months and 25 days. 
Wright has remained a fugitive from U.S. justice since this 
date.
    On July 31st, 1972, Wright and four others, to include one 
of the persons he escaped with, hijacked a Delta Airlines DC-8 
en route from Detroit to Miami. The hijackers were accompanied 
by three of their small children. Wright was dressed in the 
garb of religious clergy. Wright was the eldest and the leader 
of the hijackers. He wielded a handgun, gave the orders and 
issued the threats. He pointed a cocked weapon to the head of 
the airline pilot, Captain William May. Once landed in Miami, 
Wright demanded $1 million and threatened that if his demands 
were not met, he would toss bodies out of the plane.
    Wright and his fellow hijackers received the million-dollar 
ransom, and they released approximately 80 passengers. The 
flight crew was not released and were forced to fly the plane 
and the hijackers first to Boston and then on to Algiers, 
Algeria. Algerian authorities seized the $1 million and the 
plane, returning them both to the U.S. The hijackers, however, 
were allowed their freedom and eventually made their way to 
France.
    Wright and the four other adults were all indicted for air 
piracy in the United States on August 3rd, 1972. While in 
Algeria, Wright and the other hijackers made a videoed press 
statement, and as part of that statement the speaker stated, 
among other things, that the hijackers were revolutionaries. In 
May of 1976, four of the hijackers--the lone exception being 
George Wright--were arrested by French authorities for the 1972 
air piracy. In 1978, France tried these four for the air 
piracy, and they were all convicted of same. And so to this 
day, Wright has not served his sentence for his homicide 
conviction, nor has he been tried for the indicted charge of 
air piracy.
    My involvement in this matter began in 1994 when I reopened 
the New Jersey fugitive investigation regarding Wright. I 
worked it until my retirement in July 2011. The United States 
Marshals and the New Jersey Department of Corrections joined 
the investigation in approximately 2003. Since the case was 
reopened, most all the techniques used in fugitive 
investigations were employed. These would include but not be 
limited to: interviews, both domestic and abroad; notification 
to national law--to international law enforcement; court 
orders; human intelligence; cooperation of foreign law 
enforcement. Specifically, fingerprints, age-enhanced sketches 
and computer images were produced and distributed. The United 
States Marshals commissioned the making of an age-enhanced 
bust. All three agencies played a vital and significant part in 
this investigation. And just as an aside, to my mind it was a 
model of organic and ad hoc interagency cooperation.
    In March of 2010 the Portuguese police notified the FBI 
legal attache in Madrid that they had positively identified the 
person living in Portugal under the name of Jose Luis Jorge dos 
Santos as George Wright. This they did, unknown to Wright, by 
comparison of photographs they had on file for Santos with 
those of George Wright.
    In September of 2010, six months after the positive 
identification, myself and attorneys from the Department of 
Justice Office of International Affairs met with Portuguese law 
enforcement and prosecutors in Lisbon, Portugal. The purpose of 
this meeting was for the United States to seek Portuguese legal 
input and to work together so that the United States might 
produce an extradition request with the greatest chance of 
success.
    I would characterize these meetings as both positive and 
productive. All the parties agreed that extradition could 
proceed for U.S. person George Wright. Further, there was 
agreement that George Wright was using a made-up name of Jose 
Santos and had in fact provided false pedigree information to 
the Portuguese government as regards to his name, place of 
birth and parentage.
    One issue remained unresolved. Portugal saw as barrier to 
extradition Wright's exposure to a 25-year sentence of 
incarceration for an air piracy conviction. They viewed this as 
the equivalent of a death sentence, and therefore that would 
serve as basis for the denial.
    Moving along, well over a year had passed since the 
positive identification had been made, and this issue proved to 
be intractable. And no extradition request had yet to be 
submitted. In May of 2010, the decision was made to tender the 
extradition request based solely on Wright's homicide 
conviction. I participated in this decision and supported it 
fully. In fact, it was probably done at my instigation; so if 
hindsight determines this is a bad call, I am solely to blame.
    Portuguese law enforcement arrested George Wright in 
September of 2011. Since his arrest, the Portuguese courts have 
denied the United States' extradition request for Wright. It is 
my understanding they cited the following in their ruling: One, 
too much time had passed, and there must be closure to criminal 
cases. Two, Wright's integration into Portuguese society 
demanded that extradition be denied on humanitarian grounds. 
Both these two reasons cited per DOJ are not--per DOJ are just 
not recognized as basis for denial of extradition per our 
treaty with Portugal. And third, the court found that Wright is 
a Portuguese citizen. This is where the matter now stands.
    Looking forward and beyond George Wright, each nation is 
free to choose its own criteria for citizenship. This is how it 
is and how it should always be. But it would seem that each 
nation would have self-interest in seeking an obligation from 
prospective citizens seeking naturalization, for them to tell 
the truth regarding their identity and any information they 
give the government. This would obviously provide for the 
safety and security of the nation's own security. George Wright 
provided false information to Portuguese authorities, it would 
seem, because if he provided his true identity, not only would 
citizenship be denied but he would probably be arrested.
    In August of 1972 George Wright was indicted on the 
criminal charge of air piracy. If one looks at the elements of 
the crime Wright committed, this same act committed today would 
potentially be charged as an act of terrorism. And for such a 
charge, the extradition treaty between U.S. and Portugal states 
that Portuguese citizens can and will be extradited for 
terrorism. I actually could not imagine that this crime, taking 
place today, would not be charged as terrorism.
    And specifically with return to George Wright, I've seen 
numerous media accounts post-arrest that suggest for some time 
he has led a good life and that he has in fact rehabilitated. 
This is perhaps a valid argument, and he might have a case for 
such. But there remains only one place that can decide if such 
an argument is valid, and that is here in the United States 
where he committed his crimes, in front of a court or a parole 
board of proper jurisdiction. I would encourage George Wright 
to come and make his argument. Thank you.
    Mr. Smith. Mr. Gallagher, thank you so very much for that 
very extensive background, as well as for your work dating back 
to 1994. And thank you so much for that.
    I'd like to now ask Mr. Winer, if you would proceed with 
your testimony.

JONATHAN M. WINER, SENIOR DIRECTOR, APCO WORLDWIDE, WASHINGTON, 
  DC, AND FORMER U.S. DEPUTY ASSISTANT SECRETARY OF STATE FOR 
                 INTERNATIONAL LAW ENFORCEMENT

    Mr. Winer. Mr. Chairman, Mr. Cohen and honorable members of 
the Commission: As former deputy assistant secretary of state 
for international law enforcement, I'm honored to testify, to 
share my views regarding the international extradition system 
and options for the United States when a foreign legal system 
frustrates justice. I ask that my full written statement be 
placed in the record.
    Mr. Smith. Without objection.
    Mr. Winer. During my tenure in the State Department and 
since, our government has worked to vindicate one underlying 
goal with regard to fugitives: to secure their return to the 
United States to provide justice regardless of the criminal's 
location. I have 10 points to make about how to apply this 
principle to the George Wright case and more generally.
    First, the decision by the Portuguese judge to refuse 
Wright's extradition to the United States is legally 
indefensible under the 
century-old U.S.-Portuguese extradition treaty and under the 
principles of extradition law internationally. Neither the 
passage of time nor Wright's citizenship through marriage 
provide a legitimate basis for the Portuguese judge to deny 
extradition, let alone humanitarian factors that have been 
asserted. This is simply legally wrong.
    The statute of limitations protects people from belated 
prosecutions, not fugitive escapees from prison after their 
convictions. It is also an abuse to refuse to extradite a 
citizen of another country who's escaped prison and only later 
becomes a citizen of the country to which he's fled. The 
judge's decision on these two issues is legally wrong, morally 
unjust and should be given no respect whatsoever by any 
government beyond Portugal.
    Two, Portuguese authorities can still do the right thing to 
secure justice. Wright entered Portugal through immigration 
fraud, using a false name and with a false history about his 
citizenship and birth. It appears these true facts were not 
known to Portuguese authorities until 2010 or so. If this is 
correct, Portugal could revoke his citizenship and deport him, 
putting him on a plane to the United States or to another 
country which could turn him over to the United States.
    Three, the U.S. can take further steps on its own to use 
international institutions on this matter. George Wright is 
currently listed by the United States on Interpol's public 
wanted database as a fugitive. But the public notice is notably 
out of date. It doesn't list his current name, address or other 
current personal details. This was as of yesterday. This new 
detailed data could all be provided to Interpol by the United 
States and made publicly available to every citizen of the 
world. The U.S. could ask Europol, Europe's police institution, 
to track him down and to arrest him if he ventures beyond 
Portugal. And FBI legal attaches could make the same request 
with their EU counterparts.
    Four, the U.S. has a reward program for the rendition of 
important fugitives. One part of that's administered by my 
former bureau, the Bureau of International Narcotics and Law 
Enforcement. The State Department could issue a reward for 
information or other assistance that secures the return of 
Wright to the United States. A reward might lead to a citizen's 
arrest in which people grab him and put Wright into U.S. 
custody. This approach has been upheld by the Supreme Court. 
Indeed, the Justice Department's internal procedures expressly 
allow the use of bounty hunters and rewards.
    Fifth, the U.S. can itself use lures to entice a criminal 
fugitive to leave a foreign country so he or she can be 
arrested in international waters or airspace, or brought to the 
United States or in a third country for subsequent extradition, 
expulsion or deportation. There are a wide range of 
possibilities for lures potentially applicable to Wright. How 
will he know whether a book agent or movie agent is real and 
intends to help him publicize his life, or is actually an agent 
of the United States? I hope he has a lot of trouble making 
that distinction in the days to come.
    Sixth, the United States could undertake an extraordinary 
rendition, in which U.S. government officials take direct 
action to capture a terrorist--which Wright was--such as 
snatching Wright as he's going about his day-to-day business, 
smuggling him into a car and then to a boat, and then bringing 
him to the United States to face justice. Notably, the use of 
such techniques risks significant protests on the part of a 
foreign government such as Portugal and can chill the bilateral 
relationship. This happened when we did it in a very important 
case in Mexico. We did the right thing. The Mexicans were 
angry, but it was the right thing to do after they tortured and 
killed a Drug Enforcement agent--Administration agent. And it 
happened recently in Italy in connection with some renditions. 
But we can still do it if we choose to.
    Seven, the U.S. could apply terrorist economic sanctions to 
Wright, prohibiting transactions with him by any U.S. person 
and freezing any assets he may have in any U.S. financial 
institution. Now, he may not have any in any U.S. financial 
institution, but foreign financial institutions often then 
apply these sanctions as well to protect themselves, and it 
will certainly inhibit his ability to gain any economic 
advantage from his life story.
    As he stated publicly, he hopes to write a book about his 
life and secure a film deal. U.S. imposition of terrorist 
sanctions against him would make it much more difficult for him 
to sell the book and to profit off his crimes, and might make 
it possible for profits from any of these ventures could be 
seized by the United States.
    Eight, the U.S. could take steps to punish Portugal for its 
court's unjust refusal to extradite Wright. Unfortunately, I 
believe this approach almost certainly would be 
counterproductive in practice. We have all kinds of security 
arrangements with Portugal. The Portuguese government did not 
do the wrong thing, as near as I can tell here: A Portuguese 
judge did, a different part of the Portuguese government. And 
for that reason, were I in the State Department, I would not 
support sanctions against Portugal. Regardless, senior U.S. 
officials can be directed to raise this issue with Portuguese 
counterparts, inviting positive steps by Portugal, such as 
denaturalization and deportation, to secure justice, and I 
certainly hope they do that.
    Nine, Congress could strengthen the executive branch's 
ability to analyze and apply these tools in cases of failed 
extraditions, such as this one. This could be facilitated 
through a congressional mandate for an annual report on 
extraditions to Congress covering such issues as total 
extraditions by country, number of extraditions refused, 
reasons for refusal of extraditions and steps taken by the 
United States in response to a refused extradition. Such a 
report might provide for further focused attention on these 
issues by both the executive branch and by Congress, thereby 
facilitating the goal of securing justice for all.
    I understand any administration might resist putting such 
information in one place publicly in order to protect 
confidential intelligence, diplomatic and law enforcement 
programs, activities and relationships. For this reason, 
Congress may wish to consider structuring any such mandate to 
provide for a public report that delivers statistical data and 
information with a--in classified--publicly, with information 
on certain matters in a classified appendix.
    Finally--and I know you're facing a vote--we're OK? OK. 
Finally, the U.S. should not give up on this case simply 
because an extradition has failed. A fugitive may be able to 
run, but should never be permitted to hide. George Wright has 
expressed his relief at not being returned to the United States 
to serve out his prison sentence, and being allowed to spend 
the remainder of his life with his wife and his grown children, 
while profiting off his crimes by writing a book about them and 
seeking a film deal. Walter Patterson and his entire family 
have been denied such pleasures and their fundamental human 
rights by Wright and his own personally chosen criminal acts.
    In this case, and in other cases like this, U.S. policy and 
the actions our government takes must make sure that murderers 
and terrorists, wherever located, can never breathe the sigh of 
relief that they have reached safety as a result of outlasting 
law and justice.
    Which of the options I have outlined should be taken in 
this case will depend on careful judgments by those in the U.S. 
government with the most knowledge of the facts about what 
steps will be mostly likely to actually succeed to secure 
justice here. The Commission may contribute to that process 
further through ongoing dialogue with those who have those 
responsibilities, including sending specific questions to 
relevant components of the U.S. government about their intended 
actions on this case now that extradition has failed.
    I am available to respond to any questions you may have, 
and thank you.
    Mr. Smith. Thank you so much, Mr. Winer. Let me just ask 
you, if I could, first, of your 10 points, what points, if any, 
have been pursued by the Justice Department or by State?
    Mr. Winer. Based on the public record, it does not appear 
any steps other than the extradition--Mr. Gallagher may have 
more information than I do--and that's one reason why further 
inquiry from the Commission may be of value.
    Mr. Smith. Mr. Gallagher, are you aware of any other 
efforts made besides extradition?
    Mr. Gallagher. No, I am not. As of my retirement, I'm no 
longer in the loop.
    Mr. Smith. OK. Again, we had asked that the administration 
be here. Due to a scheduling conflict they're not, but we will 
ask that question and many others in open hearing, as well as 
by way of letter.
    Yes.
    Mr. Winer. Mr. Chairman, Mr. Schwartz at the Justice 
Department is a person I've worked with in the past for whom I 
have the highest possible regard for his integrity, competence, 
diligence, creativity, imagination, knowledge. And I think that 
working with him on this matter would be as fruitful as it 
could possibly be, in light of his institutional 
responsibilities.
    Mr. Smith. Knowing what you know, having worked as a DAS--
deputy assistant secretary--for law--international law 
enforcement, is the decision made at his level, or would it be 
made at a higher level?
    Mr. Winer. I think the answer to that question is yes and 
yes, which is to say Mr. Schwartz exercises a lot of 
influence--and he should: He's a person of great judgment and 
experience. In this matter and all of these kinds of matters, 
the State Department has its equities; it wants to maintain a 
good relationship with Portugal, which, as I said, this is a 
judicial decision, not an executive branch decision; it's going 
to want to think about precedent. The Justice Department has 
had a lot of experience with such problems as extraordinary 
rendition over the past decade, and so there will be more than 
one component of a U.S. government that would likely be 
involved in this kind of process.
    Mr. Smith. We have heard that before. We've heard it 
recently in the case of a child who was abducted to Brazil, and 
the equities were such that very little was being done to bring 
David Goldman's son, Sean, back. It was on a list of talking 
points but hardly a priority. We hear it often.
    It seems to me that from the Portuguese point of view, 
there should at least be some consideration being given as to 
what this does to the other side of that equation, and that is 
what Americans--what the American government, what the Congress 
and hopefully what the executive branch--thinks of what appears 
to be a rogue court. As you said, I think, Mr. Gallagher, so 
well, questions could be asked and--but the final adjudication 
needs to be done here, where the crime and the conviction and 
the sentencing and the incarceration were all done in a very 
lawful manner and no one questions whether or not the rule of 
law was followed in this case.
    And yet some rogue--seemingly rogue--judge is able to do 
this, and there will be repercussions, respectfully, I would 
say, from this side, vis-a-vis Portugal.
    Mr. Winer. Mr. Chairman, from my perspective, when Congress 
takes an interest in an issue like this, it can motivate 
elements of our government to do more. And the instincts of the 
government ordinarily in the executive branch is to deal with 
the crisis of the day and the underlying goals of maintaining 
relationships and working problems. Making this a priority is 
an important part of the congressional mission and does have an 
impact--a positive impact--on executive branch functionality in 
terms of protecting Americans. And it can make a very big 
difference in strengthening the ability of the executive branch 
to protect Americans, as is the case here.
    Mr. Smith. And that is part of what the hope is here, that 
this begins an introspection as to whether or not we're doing 
all our due diligence to protect Americans everywhere.
    I just came back from Bolivia just a few weeks ago on a 
case of a man named Jacob Osstreicher, who has been charged 
with nothing, languishes in Palmasola Prison with no charges 
brought against him. The welfare and whereabouts aspect of what 
State has done, by the consular affairs people, is tremendous, 
but it has not been raised to the level of government to 
government, in a way--has not gone to the undersecretary, has 
not gone to the secretary or any higher. I asked that question 
specifically. So we're making, hopefully, a big deal about 
that, not just for Jacob--although that should be enough--but 
for any other American who is improperly and unethically 
incarcerated and is made to suffer.
    And that, Ms. Patterson, is in part what we're trying to do 
here.
    One--and I think this is something that is often missed by 
some in government --and that is the ongoing trauma that you 
and your family has experienced. This is not over. And there 
are three impact statements that some of the younger relatives, 
the daughters, would submit--are going to submit for the 
record. As you said, five generations of traumatizing, and for 
this man to remain at liberty, thumbing his nose at the world, 
especially at your family and at the United States, having been 
incarcerated.
    And all the good work that was done by the FBI--Mr. 
Gallagher, thank you for that tremendous work taking this up in 
1994. And I'm wondering, having worked with the Portuguese, is 
this a pattern? Have you detected anything that would even 
suggest that this is the way the Portuguese government acts, or 
is this an aberration?
    Mr. Gallagher. This was my lone attempt at extradition with 
Portugal. But I can say that when we met with them in 
Department of Justice, they were--the law enforcement, they 
were the ones that, at our behest, made the positive 
identification and were bending over backwards to help us, as 
were the Portuguese prosecutors. And I would defer that it--to 
me, it looks like a sole judge in the judiciary over there that 
is--that has just made a bad call.
    Mr. Smith. Now, is there a higher level of court that can 
overrule him? Is that in the process? And did the United States 
meet its timeline to appeal and to try to bring this to the 
next level?
    Mr. Winer. Mr. Chairman, I don't understand the final 
moments of this case, in which we--the United States 
Government--apparently did not do a final appeal.
    I know that the Office of the Legal Counsel at the 
Department of State and/or the Office of International Affairs 
in the Department of Justice would most likely have been 
involved in making a determination on that. Both of these 
offices, in my experience, regardless of administration, 
Republican, Democrat, over decades, are diligent and honorable 
and pay attention, first and foremost, to the legal equities of 
Americans--American citizens and the U.S. government.
    And while other parts of the government may have other 
equities, I want to maintain a great relationship with the 
country of A, B or C, these offices are very focused on those 
points. So it's a factual thing to clear up with them.
    I can tell you point blank Portugal and the United States 
have maintained over many decades close working law enforcement 
as well as military security relations that have advanced U.S. 
security and law enforcement goals over a long time. These are 
not just valued allies in a cliched sense; they're valued 
allies in a day-to-day operational sense. And I do not blame 
the country for what this judge did, just as any number of 
American judges have made decisions with which I vehemently 
disagree and do not control.
    Mr. Smith. You know, this hearing is not the beginning. 
When Ms. Patterson came and asked me to look into this, I got 
on the phone immediately and began the process, and then knew 
in a timely fashion that an appeal had to be filed. And so, you 
know, they certainly were on notice that something should have 
been done sooner rather than let a deadline pass, which is 
again why we had hoped the Justice Department would be here to 
give us a--maybe we're missing something. I'd love to know.
    Mr. Winer. Congress should have an explanation from the 
executive branch on this.
    Mr. Smith. Appreciate that, thank you.
    Mr. Gallagher. Mr. Chairman, I'll give you my sense of it, 
and that is as--I've been informed that the appeal could--the 
department--or the Department of Justice hired private 
attorneys in Portugal. And the Portuguese prosecutors, for 
whatever reason--and the reason I don't know--chose not to go 
ahead with the appeal on their side. The court ruled that the 
private attorneys hired by Department of Justice could not go 
forward on their own without a file of appeal by the 
prosecutors, and that--that's what I know. I can't explain it, 
but--
    Mr. Smith. OK.
    Mr. Winer.
    Mr. Winer. Attorneys regularly, in this world, don't think 
of all contingencies, or in the--to be more blunt, screw up. 
And if Mr. Gallagher's account is correct, it may be that 
inadequate consideration was given by the Justice Department to 
this possibility. These things can happen, and in this case, 
the result is a travesty. This is unjust, this is a travesty, 
this is wrong, this should be turned around and the United 
States Government should be taking whatever steps are 
appropriate to get this turned around.
    Mr. Smith. Your point number eight--and I thank you for 
that emphatic statement--you mention that senior U.S. officials 
can be directed to raise this issue with Portuguese 
counterparts, inviting positive steps by Portugal such as 
denaturalization and deportation to secure justice. Has that 
been done?
    Mr. Winer. I have no information as to whether it's been 
done in this case. It may well be that because the extradition 
process was going forward, this option was not previously 
considered. It should be. If he, as every fact seems to 
indicate, committed any form of fraud in Portugal that allowed 
him to become a citizen, certainly under core principles of 
immigration law, you can seek a denaturalization as a prelude 
to deportation. And this is done, it can be done and it has 
been done in other cases, and it certainly should be actively 
explored in this case. If that doesn't work, you've got lures, 
you've got extraordinary renditions, you've got bounty hunters 
and rewards. Those are all options.
    Mr. Smith. Mr. Gallagher, you--and it must have been 
agonizing to recommend that the air piracy charges be dropped 
so that this conviction and--it would--the way would be paved 
to bring this man back to serve for having murdered Mr. 
Patterson. Could you just elaborate a little bit on how hard 
that had to have been? I mean, air piracy is an extraordinary, 
an egregious crime, and yet you saw this, you know, garnering 
justice in this case to trump that. You triaged it.
    Mr. Gallagher. I can answer that in that it didn't seem 
like we were getting anywhere with respect to submitting an 
extradition request, and that it was going to be denied. 
There's practical law enforcement reasons in that he's been 
positively identified for close to a year and a half, and 
sitting on a fugitive for a year and a half is interminable. 
Just the chance that he finds out that somebody's looking at 
him or for him, he could certainly pick up that information by 
a chance visit to his local police station, where they've been 
notified, hey, the guy down the road is really a U.S. fugitive, 
or a chance traffic violation. So sitting a year and a half is 
a very long time to do. So we sought resolution. I don't know 
that the air piracy thing is dead, but at the time, it was 
severed.
    Mr. Smith. You--Mr. Winer pointed out that the INTERPOL 
information was, to this--as of yesterday, I think you said--
was out of date. That's unconscionable. This man is a flight 
risk this instant. Why couldn't that be corrected easily?
    Mr. Winer. I was stunned to find it listed as George 
Wright, without a pseudonym, to list the old information 
without updates, and I do not understand it.
    Mr. Smith. How hard, Mr. Gallagher, is that to update?
    Mr. Gallagher. I know it can be updated. I hadn't queried 
it recently, so--
    Mr. Smith. Mr. Winer?
    Mr. Winer. It can be updated in an hour. It can be updated 
in two hours. It should not take more than 24 hours from this 
hearing to be updated.
    Mr. Smith. Now, is it possible that Mr. Wright, if he 
thought that the Portuguese government might do something to 
expedite the extradition, that he could, as we're talking, be a 
flight risk or leave Portugal to go to a nonextradition 
country?
    Mr. Winer. There are any number of things that he could do. 
He could go back to Algeria, I suppose, where apparently he 
started out his adventure. He could go to--where was he was in 
Africa, Mr. Gallagher?
    Mr. Gallagher. Guinea-Bissau.
    Mr. Winer. Guinea-Bissau and hang out in Guinea-Bissau, if 
he wants to do that. The United States could then pursue him 
throughout the world. Why not?
    Mr. Smith. Mr. Cohen.
    Mr. Cohen. Thank you. First of all, Ms. Patterson, I think 
I errantly referred to you as the widow and you're obviously 
the daughter, but, you know, it's just it's been such time and 
I didn't--wasn't familiar with it. But I appreciate your 
testimony. I'm sorry. Your father was a hero, and whether he 
was or wasn't, his murderer should be apprehended, but 
particularly in light of what he did in service to his country. 
Has our State Department or anybody at the United States 
Government contacted you? Have you had contact with anybody in 
this matter recently?
    Ms. Patterson. I had--besides Congressman Smith, I had 
contacted Senator Lautenberg's office, and they had put in a 
couple of requests for me, and I-- and they did request from 
the State--the Department of Justice. And I have--I do have 
copies of those letters that I will submit to the record, too. 
So I did hear from the State Department. I have written a 
letter to Secretary of State Clinton, and I did get a letter 
back from there about six months later. So I do have those two.
    Mr. Cohen. And what was the response?
    Ms. Patterson. From the State Department, they were aware 
of it and they wanted justice also. And they were going to be 
working on it. And from the Department of Justice, they said 
that they had been advised by their lawyer not to go for the 
last appeal because it wouldn't matter; they would still be 
denied. So they would be looking at other avenues also.
    Mr. Cohen. Mr. Winer--and I presume you'd be the right 
person to ask this couple of questions. First, are there other 
fugitives that Portugal has refused to extradite to our country 
that you're familiar with?
    Mr. Winer. No, the only case that I'm familiar with is the 
case that's decades old which the U.S. refused to extradite 
someone to Portugal, which went all the way up to the Supreme 
Court, having to do with nationality exclusions and became a 
big precedent in extradition law. But this is not a pattern, to 
the best of my knowledge.
    Mr. Cohen. And you don't think that the judge there would 
have had that in the back of his mind?
    Mr. Winer. No.
    Mr. Cohen. It's not--it's not a case that's a burning issue 
with people. Do you know anything about this judge and his or 
her history and background and--
    Mr. Winer. I do not, sir.
    Mr. Cohen. No? And the judge is strictly--what type of 
judge is it? Do you know?
    Mr. Winer. I do not, no.
    Mr. Cohen. The Portuguese judiciary, is it known to be 
above board?
    Mr. Winer. It's considered to be independent. And like most 
Western European judiciaries, it's pretty good--imperfect, but 
pretty good. And again, in the United States, there are any 
number of decisions that judges make that I've disagreed with 
over the years. It's difficult to enforce rule of law in a fair 
and honorable way in all cases. Travesties occur. This is a 
travesty and an outrage.
    Mr. Cohen. Has anybody from the Portuguese government--I 
know it's a separate branch and all that--expressed in any way 
their concern about the decision of the judge or any action 
that they might think was appropriate, or have they been pretty 
moot on it?
    Mr. Winer. That's a question that you would have to ask 
United States government or Mrs. Patterson about.
    Mr. Cohen. Do either Mrs. Patterson or Mr. Gallagher know 
of any statement that the government might have made, any 
concern or issue--
    Mr. Gallagher. No, I'm not aware.
    Mr. Cohen. None at all. Rendition's an interesting concept. 
You brought it up, Mr. Winer. Who is the--which branch of our 
government does this? Is it the--
    Mr. Winer. Renditions have been done in recent years by 
intelligence agencies with involvement under some certain 
circumstances of the military or other security elements of the 
United States Government. The law enforcement agencies take the 
point of view that they do not ask how someone came under U.S. 
jurisdiction. That's not important. Their role is to deal with 
people once they're under U.S. jurisdiction.
    Mr. Cohen. It's a results test.
    Mr. Winer. Correct. Other components of the United States 
government are involved in the rendition process or private 
citizens in connection with rewards programs.
    Mr. Cohen. It's rare that this is used, to the best of your 
knowledge?
    Mr. Winer. It was rare when I was in the government. My 
understanding is it was less rare in the Bush administration 
during the period post-9/11. And it appears the current 
administration has moved more towards the use of other 
mechanisms rather than renditions to deal with terrorists. The 
drone program would be one example of that.
    Mr. Cohen. Rendition to the--
    Mr. Winer. Rendition to another place.
    Mr. Cohen. Yes, yes. Indeed. Is Wright hiding out, or is he 
pretty open and notorious in Portugal now? Do we know? Mr. 
Gallagher, do you have any idea?
    Mr. Gallagher. By all media, he's living in the same 
residence and open.
    Mr. Cohen. So somebody could go over there and bring him to 
justice or whatever. And do you know how long he's been 
married, how long he's had citizenship?
    Mr. Gallagher. No, I do not.
    Mr. Cohen. Yeah. This is--it's an amazing story. I 
appreciate Mr. Smith bringing this to the Commission. It is a 
terrorist act. I think I remember this. It's hard--it's '72--
I'm that old. And during that time, there were quite a few 
hijackings, and we were all concerned about flying and would 
you end up in Cuba. You know, a lot of them went to Cuba, but I 
remember this Algeria thing and going to Miami and Boston and 
the whole scene, so I guess I remember this case. And it did 
make people leery of flying, and it's certainly a terrorist act 
and something that shouldn't just be forgotten about.
    I mean, we should find justice.
    I've been in the--I'm proud to be a member of the Judiciary 
Committee, as well as this Commission. But in the Judiciary 
Committee under Chairman John Conyers we did a lot of 
successful legislation to see that perpetrators of civil rights 
crimes were brought to justice, even though the--many years had 
transpired since the crime had been committed. And I think in 
those--all those circumstances, the perpetrators should be 
brought to justice, for the crime they did was against society. 
And in this situation, it's the same. And I don't think--I 
don't find the judge's decision that there's any kind of a 
lapse, a breach--because a time should work, latches shouldn't 
be applied, statute of limitations or anything like that. And 
we should take a position that we get involved.
    So I'd like to plan to join with Mr. Smith. I did not have 
the opportunity to do it in the past. But if he does another 
entreaty to the State Department--and I feel confident that he 
will--I would like to join with him in that, and whatever 
efforts we do so, it is bipartisan. And I believe that we 
should continue action to see that this gentleman is brought to 
justice, because what he's done was wrong to your family, it 
was wrong to the United States of America and is wrong to the 
justice system. So I appreciate the hearing, the testimony, and 
I regret what you and I presume these--are these granddaughters 
here?
    Ms. Patterson. (Off mic.)
    Mr. Cohen. Well, I'm sorry about--you had a great 
grandfather, and your mother's doing a great job to remember 
that legacy. We should never forget the legacy. We should 
always remember and try to find justice. You know, in the 
Jewish religion, the Holocaust, never forget, and you don't 
forget your family.
    Thank you.
    Mr. Smith. Well, thank you. And we will work together on 
requesting additional actions by the State Department and 
Justice Department. Let me ask--we have three impact 
statements, and I know--and without naming each person, because 
I know that that's a concern--I would like if any of the 
granddaughters--or daughters, I should say, would like to--and 
granddaughter--say a word or two or a paragraph from their 
impact statement. The entire statement will be put in the 
record.
    And while you're thinking about the--for a moment, Mr. 
Winer, you made a very excellent point about Congress' strength 
and the executive branch's ability to analyze and apply these 
tools in cases of failed extraditions, and you proposed that we 
get a report--and we will follow up with some legislation 
pursuant to your excellent recommendation that would cover 
total extraditions by countries, number of extraditions 
refused, reason for refusal of extraditions and steps taken by 
the U.S. in response. And that's the one that we would really 
look forward to--in response to a refused extradition.
    We don't have the data. We don't get the information. 
There's a lack of compiling it, and I think your recommendation 
is a good one. Thank you for that.
    Would anyone like to say a word, please? No need to say 
your name.

               GRANDDAUGHTER OF WALTER PATTERSON

    Granddaughter. Should I read the whole thing or--OK. I am 
not sure I will ever know the full impact of never meeting my 
grandfather Walter Patterson, but I can speculate how things 
could have been. I imagine that he would have spent time with 
his grandchildren as we grew up, visiting us, playing with us, 
spending holidays with us or going to our weddings, meeting his 
great-grandchildren. I am sure he would have told us his war 
stories and life adventures, but we will never know his story 
as told by Walter Patterson.
    If my grandfather hadn't been murdered, I think my 
grandmother would have lived longer to enjoy the abovementioned 
activities with her grandchildren. George Wright took both of 
them away from us.
    Even though George Wright denies firing shots, it was not a 
bullet that killed my grandfather. He died from severe head 
trauma, trauma inflicted on my grandfather by George Wright. 
Beating a man who was a decorated World War II veteran while he 
was down is a cowardly act.
    It's time for George Wright to grow up and be a man and 
face punishment for the violent, disgusting crime he committed. 
Wright chose his actions. Now he needs to pay the price for 
them.
    One of the biggest impacts of living without my grandfather 
was financial hardship. He was a gas station owner who probably 
would have had financial security to pass along to my mother. 
Instead, she had her father and all that he had to offer taken 
away. My mother had to start with nothing, therefore times were 
extremely difficult for us as we grew up. I started babysitting 
and taking care of neighbors' pets when I was in 5th grade to 
earn some money. I used that money to buy a car. As soon as I 
was old enough to drive, I went to work after school each day 
and on weekends to pay for car insurance, gas and clothes. If I 
needed something, I knew I had to pay for it.
    After high school, I had to work two jobs while going to 
college full-time. I had to pay my own tuition. I had to pay 
for my own wedding. My parents simply didn't have the means to 
help their children with these things. If my grandfather had 
been alive, he could have watched us when we were little so my 
mom could have gone to work to help out financially.
    My parents did the best they could just to put food on the 
table for us. My dad hunted, so we ate a lot of venison. There 
were no extras or luxury items. We wore hand-me-downs and were 
taught to be happy with what we had. My parents wouldn't have 
needed to struggle if my grandfather had been there to help. My 
grandfather wasn't here to help due to George Wright's 
senseless crime.
    Whatever happened in the hospital when my mom went to see 
her father as he was dying caused her to not be able to go to 
hospitals anymore. She has 11 grandchildren--12 now--that she 
was unable to see when they were born, not until they came 
home. My daughter was in a special care nursery for 10 days 
when she was born. Luckily, she was OK, but my mom may have 
never seen her granddaughter alive. I split my head open as a 
child and had to wait for a ride to the hospital to get 
stitches because my mom couldn't take me to the hospital and my 
dad was at work. He worked as many hours as he could just to 
make ends meet.
    It is difficult to speculate how things would have been if 
my grandfather hadn't been murdered, but his presence could 
have only made life easier and better for all of us. George 
Wright turned my mother's life upside down, and five 
generations of the Patterson family have been negatively 
affected. Wright has lived a full life, while my grandfather's 
life was senselessly taken away.
    Wright should be thankful for the time he has had with his 
family. At least he has the opportunity to say goodbye to his 
wife and kids as he leaves to serves his sentence. My 
grandfather wasn't given that courtesy. George Wright's fate is 
a result of his own choices and actions.
    My grandfather was an innocent man trying to make an honest 
living. He fought for our country and for our freedom. In 
return, he was beaten to death by George Wright. Please provide 
justice for my grandfather Walter Patterson, and extradite 
George Wright to the United States to finish serving his 
sentence for the brutal beating and murder of my grandfather. 
Thank you for your time and consideration.

               GRANDDAUGHTER OF WALTER PATTERSON

    Granddaughter. Thank you. ``Get away with murder.'' To some 
it's just an expression, but to others a reality. Forty-nine 
years ago, a little girl of 14 years old received a horrifying 
phone call. On the other end was a distraught family member 
calling to notify a woman that her husband had been brutally 
attacked and shot. The 14-year-old was the recipient of this 
message and was told nothing except: Walt's been shot.
    Walter was her father, who two days later had vanished from 
her life forever. It sounds like a movie or storyline for a 
perfect mystery book series. To my family and myself, it's the 
harsh reality of the world we live in.
    My mother is that 14-year-old girl, and Walter Patterson is 
the grandfather I never met. From what I understand and 
conclude from stories told, he was a hardworking family man. He 
had risked his life in the U.S. Army fighting for the freedom 
of the people and the country in which we reside.
    Going to battle and sustaining injuries during combat isn't 
what took him from his family. It was the appalling choice of 
some of the very Americans he was fighting for. It was a moment 
that would change the lives of many people.
    On the night of November 23, 1962, Walter Patterson was 
working at a gas station he ran. It was an innocent night's 
work, and he was making a living to provide for his family who 
consisted of a wife and two young daughters. When a car of four 
individuals pulled around the back of the shop, an average 
workday would soon take a turn for the worst. Little did my 
grandfather known he'd soon be faced with individuals garbed 
with stockings on their heads and equipped with guns in their 
hands. What began as a robbery ended in murder. The individuals 
who set out with the intentions of killing had succeeded. 
Luckily, our justice system had been victorious in apprehending 
these individuals and convicting them for the crime they 
committed.
    Walter Patterson can't be brought back to watch his two 
daughters blow out their birthday candles, hang Christmas 
lights with his family or carve the Thanksgiving turkey. He 
would never be able to participate in daddy-daughter dances, 
walk his daughters down the aisle on their wedding day or enjoy 
the births of their children. But at least the creatures 
responsible for this would pay for what they've done--or would 
they?
    Seven years of a prison sentence was apparently all that 
one of these cowards, a man by the name of George Wright, could 
handle. As if choosing to participate in a murder wasn't enough 
of a poor choice, his life of crime wouldn't stop there. Mr. 
Wright had the brilliant idea to steal the prison warden's car 
to make his great escape. Being a criminal obviously came easy 
to this individual, because his law-breaking actions didn't 
stop there. What does a convicted murderer do after he breaks 
out of prison?
    Well, this particular criminal chose to expand his criminal 
record by hijacking a passenger plane, putting yet more lives 
at risk and making a mockery of the FBI. He managed to collect 
$1 million in ransom money, which he demanded be delivered by 
FBI agents in their underwear or swimsuits. One would think 
that if this murderer were to be caught, he'd really be in 
serious trouble with all these actions he carried out.
    For many years George Wright lived his life. He even got 
married and had a family of his own. Were the images of a 
beaten and shot man ever present in his mind? Did he ever think 
about the lives of those family members that were torn apart on 
that day that he chose to act like a man of no feelings or 
regard for human life? When he was counting his illegally 
obtained million dollars, was he picturing two young girls 
standing over a coffin painfully watching their young, brave 
father be buried? Was he thinking of the young single mother 
who was left to deal with her newly broken family? I doubt it.
    And George Wright was actually running like a coward while 
conspiring about how he would be able to live the good life 
himself. No conscience, remorse or regret has ever been evident 
by this individual's actions. He must have felt he had 
something to hide, proven by the fact that he illegally and 
unofficially changed his name and remained in a country half a 
world away from where he destroyed Walter Patterson and his 
family.
    Forty-one years have passed by. After diligent searching 
and a refusal to put this case file back in the file cabinet, 
the FBI was hopeful that they had found this murderer and 
fugitive. That 14-year-old girl who received that devastating 
phone call is now 63 years old and has received yet another 
phone call regarding the murder of her father. Only this time, 
the phone call was of a positive nature. The news of this armed 
robber, murderer, prison escapee, plane hijacker and fraud 
being caught seemed surreal. After all these years, this man 
will finally pay the price for the crimes he chose to commit.
    The life of Walter Patterson can't be brought back. Knowing 
that justice will be served and that George Wright literally 
won't get away with murder will help to close the door on this 
devastating chapter of Walter Patterson's family's lives. 
Protecting and hiding a known convicted criminal is considered 
a crime in itself. Portugal, the place in which George Wright 
chose to flee to and hide out at, like the coward he is, chose 
to protect him by refusing extradition.
    How can an average individual be punished for hiding out a 
criminal, yet here you have the government of a country 
harboring this fugitive and getting away with it?
    When this news hit our family, many emotions were felt. The 
feelings of anger, sadness and frustration are overwhelming. A 
convicted killer and fugitive has been caught but is being 
protected from the law.
    The rationale is now that he is a Portuguese citizen and 
therefore they feel the need to protect him. Never mind the 
fact that Walter Patterson had no protection from this 
individual's hands, but in hindsight, is George Wright even a 
legitimate Portuguese citizen? He used criminal acts to access 
the country and used a fraudulent family background and name to 
obtain his so-called citizenship. George Wright has not become 
a Portuguese citizen, but rather the pseudo-individual he 
created has.
    One would think the government would want to rid their 
country of crime and corruption, but Portugal is protecting an 
individual who has brought these things to them. Portugal isn't 
the only country to blame for this monster having the ability 
to move on with his life as if his hands were not a murder 
weapon at one time, as if his own mind didn't tell him to 
commit the various crimes of a hateful, malicious monster.
    The very country that Walter Patterson received numerous 
medals for protecting, it's contributing to George Wright 
literally getting away with murder. The country in which 
immigrants travel far and wide to reach to obtain a better life 
for themselves, our very own United States of America, has 
given up on one of its own. The decision has been made that a 
human life that was taken illegally by the hands of another 
isn't worth pursuing justice for.
    Members of our attorney general's office have decided that 
no more appeals are necessary in the attempt to extradite this 
convicted murderer so justice can be served. It would be very 
interesting to see if the same decision would be made if the 
individual who was prematurely buried carried one of their last 
names.
    This war veteran fought for the freedom of citizens of the 
United States. The government was unable to protect him from 
George Wright while he was still alive. The least that the 
United States could do is return the fight that he gave and 
express the need to have this man brought back to where this 
crime was committed.
    In public schools across the nation, hundreds of students 
and staff proudly recite the Pledge of Allegiance. It would be 
reassuring to know that these aren't just words but actually 
have true meaning, and that our country stands by the last line 
of this pledge. If nothing else, this country should have the 
ambition to send a message that the United States is just that: 
united.
    Thank you.
    Mr. Smith. Thank you. Remarkable words and convictions, 
heart, courage from three remarkable women. Mr. Patterson would 
be so proud. We will continue our efforts diligently. The 
hearing's adjourned.
    [Whereupon, at 3:20 p.m., the hearing was adjourned.]
                            A P P E N D I X

=======================================================================


                          Prepared Statements

                              ----------                              


 Prepared Statement of Hon. Christopher H. Smith, Chairman, Commission 
                 on Security and Cooperation in Europe

    Good afternoon and welcome to everyone here for our hearing on 
``Justice in the international extradition system: the case of George 
Wright and beyond.''
    In September 2011, hopes were raised high when the FBI announced 
that George Wright, a fugitive for over 41 years, had been located in 
Portugal and taken into custody pursuant to provisional arrest request 
from the United States. These were hopes for accountability, justice, 
and, for the family of the man he murdered in Wall Township in 1962, 
for closure.
    In 1963, George Wright was sentenced to 15 to 30 years in prison in 
connection with a gas station robbery during which Walter Patterson, a 
decorated World War II veteran and Bronze Star recipient, was shot to 
death. He was subsequently sentenced to 15 to 30 years but escaped from 
prison in 1970. In 1972, he and four other men hijacked a Detroit-to-
Miami flight--they flew the plane to Algeria, where Algerian 
authorities allowed them to disappear.
    In 1976, four of the hijackers were located and arrested in France. 
They argued that they would not be able to get a fair trial in the 
United States because of racism in the American legal system. France 
invoked the ``political offense exception'' and refused to extradite 
them to the United States, but tried them in France instead. Following 
conviction, two of the hijackers spent a mere three years in prison and 
two others spent 2 1/2 years. George Wright was not one of those 
caught. For 41 years, George Wright's whereabouts were unknown, and he 
built a life for himself that included a wife and children--a life that 
he denied to Walter Patterson.
    When George Wright was located in Portugal last year, the Patterson 
family naturally thought that, as a prison escapee sought also for 
hijacking, he would be returned to the United States to finish serving 
the sentence he received for the murder of Walter Patterson. But 
shockingly, a Portuguese court rejected the United States' extradition 
request last November and efforts to reverse that decision were 
exhausted without success earlier this year. The Patterson family, so 
deeply wounded by the murder of Walter Patterson and then shocked by 
the escape of a person sentenced in that crime was injured yet again by 
Portugal's refusal to extradite George Wright.
    Today's hearing will examine what happened in this case, what can 
be done about it, and the broader questions it raises about the 
international extradition system.
    I welcome here Ann Patterson, Walter Patterson's daughter, who will 
put human face on what some might otherwise appear to be abstract legal 
issues and remind us what is really at stake when the extradition 
process fails. We will also hear from R.J. Gallagher, a retired FBI 
Special Agent who worked on the George Wright case. And finally, we 
will hear from Jonathan Winer, Senior Director, APCO Worldwide, 
Washington, DC, and former U.S. Deputy Assistant Secretary of State for 
International Law Enforcement.
    Many thanks to all of you for being here today--above all to the 
Patterson family. This can only be painful for them, but we honor their 
willingness to speak out about how this injustice has affected their 
family--they represent not only themselves but the families of 
countless other crime victims, left in the lurch and prevented from 
achieving closure on the death of a loved one by injustices in the 
extradition system.
    I would just share with you two more things before we begin.
    <bullet>  We invited the Department of Justice to participate in 
this hearing, but were unfortunately unable to coordinate the 
scheduling of this event with their availability. I look forward to 
covering this issue with them at a future hearing.
    <bullet>  We also invited the Portuguese ambassador to participate, 
but he had a scheduling conflict as well, and I will be meeting with 
him personally in my office.

Prepared Statement of Hon. Benjamin L. Cardin, Co-Chairman, Commission 
                 on Security and Cooperation in Europe

    I thank the Chairman for convening this hearing about an important 
aspect of international law which impacts citizens of the United States 
and those of countries around the world, as well as our government's 
relationships with other nations. This review of extradition will be 
conducted through the prism of the heart wrenching experience of the 
Patterson family.
    The murder of Walter Patterson in 1962 devastated his wife and two 
young teenage daughters, one of whom, Ann, will testify here today. The 
late Mrs. Patterson died two years after her husband, leaving Ann and 
her sister orphans. George Wright, who participated in the robbery that 
resulted in Walter Patterson's death, was apprehended, convicted of 
felony murder and sentenced to 15 to 30 years in prison, thereby 
providing, I would hope, some modicum of relief for the family. 
Certainly closure is another matter and the numbing grief of loss is 
never ending.
    I cannot begin to imagine the shock and apprehension endured by the 
family when Wright escaped from prison seven years later and was then 
reported to have participated in the hijacking of a Miami-bound plane 
to Algeria--only to vanish from sight for the next 41 years. The FBI's 
announcement last year that he had been discovered in Portugal and the 
rigors of the extradition proceedings have, I am sure, regenerated the 
cycle of grief once more for the family.
    The Helsinki Final Act contains Ten Principles Guiding Relations 
between Participating States. Principle Ten requires that the 56 OSCE 
States ``fulfill in good faith their obligations under international 
law, both those obligations arising from the generally recognized 
principles and rules of international law and those obligations arising 
from treaties or other agreements to which they are parties.'' The 
United States has extradition treaties with the overwhelming majority 
of the 56 OSCE participating States, including Portugal, as well as a 
multilateral treaty with European Union countries. Exceptions are the 
former Soviet Republics (Russia, Belarus, Ukraine, Kazakhstan, 
Kyrgyzstan, Tajikistan, Turkmenistan and Uzbekistan--the United States 
never recognized the forcible incorporation of Latvia, Estonia and 
Lithuania into the Soviet Union and those three Baltic States are 
covered by the EU multilateral treaty.) The status of extradition 
agreements with the successor states of the former Yugoslavia is in the 
process of being regularized.
    Extradition treaties can help the United States ensure that those 
who have committed crimes here are brought to justice. But, as we have 
seen, the implementation of extradition agreements among nations raises 
challenges. Many treaties bar extradition based on exceptions carved 
out for citizenship, statutes of limitation, military offenses, 
political offenses or cases where the death penalty may be imposed. I 
hope that the testimony to be presented here today will shed some light 
on ways to address these challenges and ensure justice in the 
international extradition process.
    Thank you, Mr. Chairman.

                  Prepared Statement of Ann Patterson

    My name is Ann Patterson and I am the daughter of Walter Patterson. 
My father was robbed, brutally beaten, and shot in his gas station in 
Wall Township, New Jersey on November 23, 1962. He died of his Injuries 
on November 25, 1962. I was 14 years old and my sister, Kaye, was 13.
    My father was a quiet, sensitive person. The gas station was his 
``American Dream'' and he was so happy to be able to have his own 
business. He worked sixteen to eighteen hour days to support our 
family.
    Daddy's name is also on the Patterson ``Honor Roll'' of soldiers--
part of a family that has fought in all of our country's wars. At age 
21, he went to Europe and served our country for four years during 
World War II. He was a TEC 5 and a truck driver/mechanic and was 
awarded the Bronze Star for meritorious service.
    It was the day after Thanksgiving and Daddy had come home for 
supper. It was about 4:30 when he got into his truck to go back to 
work. I stood at the kitchen window waving good-bye and that was the 
last time I saw him alive.
    About five hours later, the phone rang and I answered it. Aunt 
Jennie said ``Walt's been shot'' and I screamed ``No, no, no'' and 
called my mother to the phone. I was crying, told my sister, and she 
started crying.
    My mother was not well. She called Uncle Charles to take her to the 
hospital. When she got there, she couldn't recognize my father. She 
later told us they had ``beaten him to a pulp.'' The doctor operated 
from about 10:30 P.M. to 6:30 A.M. and told my mother he thought he had 
``gotten all the bone fragments.'' When I asked her what Daddy had to 
say, she told me that he couldn't talk because his jaw was wired shut. 
He was wild with pain and could not be given anything for it because he 
had head injuries. He had to be restrained in the bed. The doctor told 
my mother that seizures were to be expected with this type of injury 
and Daddy had a seizure Saturday night.
    Kaye and I had been scared to death to stay home alone on Friday 
night, so we rode to the hospital with Uncle Dick and Aunt Ginny as 
they took my mother to see Daddy on Saturday night. Aunt Ginny asked my 
mother if she had told us what we were going to see. But my mother did 
not allow us to see Daddy and we waited in the car. Daddy was in 
critical condition and no one except immediate family was allowed in. 
The doctor told my mother that if Daddy came through this, he would be 
a vegetable and need a lot of care.
    On Sunday evening, the doctor was talking to my mother in the 
hallway about my father's condition when the nurse came to them and 
told them he had passed away. They allowed my mother to spend some time 
alone with him. When she came home, Uncle Dick and Aunt Ginny were each 
holding her arms and helping her to the house. I looked at Kay and said 
``Daddy died.''
    The viewing was Tuesday and the funeral home asked for a photo of 
Daddy so they could make him look like the picture. Does that sound odd 
to you? My father was unrecognizable in the casket. His wavy black hair 
with a touch of gray was replaced with straight black hair combed back. 
His face was all uneven and caked with make-up. I knew he was my Daddy 
by looking at his hands.
    The $70 that George Wright and Walter McGhee stole wasn't enough. 
They had to beat my father beyond recognition. George Wright was 
identified by the imprints of the stock of his gun on my father's skin. 
If there had not been such a beating, the doctors could have operated 
on the bullet wound to the abdomen and it is quite possible that Daddy 
would still be with us today.
    For Kay and me, the nightmare was just beginning. Since our mother 
was not well, she could not take care of us. We were told that we would 
be sent to ``Clinton, a home for wayward girls.'' Later, I found out 
that Clinton was,in fact, a prison for girls. There is something wrong 
with sending the victims to prison while the criminals do not have to 
be incarcerated for their actions. I thank God that Uncle Dick stepped 
in to take care of us.
    Our mother was very ill with a heart condition and her death was 
hastened by losing Daddy. She passed away fifteen months later on 
February 26, 1964 leaving Kaye and me orphaned. In our house lived my 
mother's aunt and uncle, both of whom passed away during that fifteen 
month period. In just over a year, we experienced the deaths of all 
four people we lived with and lost our home. We were robbed of normal 
teenage years.
    There was no counseling available in 1962. We were left to deal 
with all this sorrow on our own. We tried to be strong for our mother 
while she was still alive.
    It has not been easy to relive all these events during the past ten 
months. The FBI Victims Specialist suggested I see a counselor which 
was beneficial to me. One of the problems that came out was the 
nightmares that I suffered from for years after my father's death. The 
counselor said that I had had post traumatic stress after I described 
the nightmares to her. I also developed asthma and colitis within a few 
weeks of Daddy's death.
    The premeditated actions of the four individuals involved in my 
father's murder have negatively impacted five generations of the 
Patterson family. I have already spoken about my parents and my sister 
and me. My mother's uncle who lived with us refused food when he 
learned of this tragedy. He said ``I don't want to stay in a world 
where this is allowed to happen'' and he died four months later. My 
grandfather never spoke my father's name without crying and told me 
``they didn't have to beat him up so bad.''
    My father's seven grandchildren were deprived of a loving 
grandfather and they are angry at the injustice exhibited in the past 
ten months.
    But the saddest to me are the hurt reactions of some of my father's 
fourteen great-grandchildren. One ofthem saw the clip on TV of the 
capture and asked ``What is wrong with people?'' not knowing it was 
about her great-grandfather. Another one curled up in a corner of the 
couch and, crying, asked if he could escape again. Five generations of 
fear and hurt are five too many.
    George Wright cannot erase his life of crime. He is fraudulently a 
Portuguese citizen. Four aliases do not change the fact that he was 
born George Edward Wright in the United States of America and committed 
crimes during his years here. When he chose the crime, he also chose 
the punishment as they go hand in hand.
    George Wright did not give my father a choice on November 23, 1962 
and so he should not have a choice about not serving his sentence. He 
does not owe Portugal time; he owes the United States.
    George Wright is not sorry for what he did. There has been no 
apology to the Patterson Family. On the contrary, he has made this all 
about himself and basked in the limelight. To want to profit from a 
book and movie highlighting his heinous acts against the Patterson 
family is a slap in the face. He is not the victim here--we are.
    George Wright is a convicted murderer who lived a life of violence, 
then fled and lived a life of lies. Now his past has caught up with him 
and he needs to come back here and serve his sentence.
    In light of all the recent media coverage, I have been approached 
by many people who have expressed their disgust toward this man and 
this situation. I feel it is a disgrace that our justice system has 
failed in assuring a proper punishment for this crime. This whole case 
sets a terrible precedent for this country both here and worldwide. It 
is a negative toward decent citizens and a positive for criminals.
    The failure of extradition has affected us in the following ways; 
1) fear of a known criminal on the loose, 2) fear of reprisal from 
criminal. Both of these fears are now 50 years long. 3) makes a mockery 
of the crime against my father. Did his life matter? 4) has perpetuated 
our pain and loss, 5) loss of any kind of confidence in the criminal 
justice system from the local branch which gave too lenient a sentence 
to the state branch that put a convicted murderer on a minimum security 
work farm to the federal branch who have backed down to Portugal in the 
matter of extradition. The case was dropped before the final appeal was 
filed. It is one thing to do all you can, another to give up before you 
exhaust all avenues.
    I have asked if there are any other avenues of justice such as 
withholding aid and have not been given any answer. Don't we have a 
right to seek justice for our father?
    Our family has been emotionally affected by injustice in the 
following ways: 1) no closure, this is still an emotionally draining, 
open wound, 2) we have family members and friends across this entire 
nation who are.appalied at the injustice of trying to obtain justice, 
3) we are not happy that George Wright wants to do a book and a movie 
and capitalize on his inhumane treatment of our father, 4) we were 
extremely upset when we read in the newspaper that the final appeal had 
been dropped. I was told that I would be notified of any decision so 
that I wouldn't be blindsided up learning something from the media, 5) 
on a personal level, this has split my family in two. Some members 
support efforts to obtain justice and some cannot emotionally face the 
details of this crime to even talk about it.
    What can be done? Here are my suggestions: 1) reinstate the death 
penalty for criminals convicted of heinous crimes. Such a strong 
penalty may act as a deterrent, 2) put pressure on Portugal. I 
understand there is a treaty from 1907 to this effect, 3) do not send 
any financial aid to Portugal, 4) form a committee at the state level 
to double check paper work so that errors like this can't happen, 5) 
support and pass Illinois Senator Richard Durbin's Bringing Fugitives 
to Justice Act, and 6) nothing that any of us say or do will bring my 
father back but if we can look ahead and help the countless number of 
children who are similarly affected or will be affected by senseless 
crimes, then all of our efforts will not have been done in vain.
    There is no conclusion to my story. It has not occurred yet for the 
Conclusion now rests in the hands of the politicians. The FBI and the 
U.S. Marshals have done their job in locating this fugitive and we 
thank them. I have done all I can by telling about our family events 
from November 23 to November 25, 1962 and the impact of this despicable 
crime. On behalf of the Patterson family, I ask you to please bring 
justice for the untimely death of my father, Walter Patterson.
    Thank you.

    Prepared Statement of R.J. Gallagher, Retired FBI Special Agent

    Good Afternoon. My name is R.J. Gallagher and I'm a retired FBI 
Agent and I would like to begin by acquainting members with the 
background of George Wright.
    On Friday night of Thanksgiving weekend in 1962, George Wright and 
two others robbed and mortally wounded Walter Patterson, a service 
station proprietor in Wall Township, New Jersey. That night Wright and 
his codefendants wore nylon stockings over their faces, and wore gloves 
on their hands. Wright carried a sawed off rifle, his codefendant a 
cheap handgun. They brought with them white adhesive tape for binding 
their victims. Earlier that same day, Wright and his codefendants cut 
the rifle down, bought ammunition and test fired the weapon. They had 
also driven around the Jersey shore area looking for prospective places 
to rob.
    At 9:30 P.M. when Wright and a codefendant entered Walt Patterson's 
ESSO Gas Station on Route 33 they were committing their second armed 
robbery of the night. This robbery, unlike the first did not go as 
planned. For it would appear Walt Patterson was not sufficiently 
compliant or quick enough to meet the demands of the robbers and a 
fight ensued. Wright and his codefendant repeatedly rained blows to the 
head and shoulders of Walter Patterson with their weapons. At some 
point the handgun carried by the codefendant fired and Walter Patterson 
was struck in the abdomen. He fell to the floor. The two robbers fled 
taking with them about $70. Both robbers were very aware that their 
victim was shot and wounded yet they left him, alone, on the floor of 
his gas station. They did not place an anonymous call to anyone to get 
Walt Patterson medical attention. Instead, using the money proceeds 
from their two robberies that evening, they went out and partied. They 
dined, they drank and they played pool till 2 or 3 in the morning.
    Investigation over the next two days led to the identification and 
arrest of the persons involved in the robbery murder. This included 
George Wright. All physical evidence was recovered: guns, stocking 
masks, gloves, ammunition. All the arrested gave full confessions.
    On January 28, 1963, Wright pled ``non vult'' to a murder 
indictment. By this plea Wright did not contest his guilt and he waived 
his right to a trial. This plea allowed Wright to receive a 30 year 
maximum sentence as opposed to a life sentence, had he gone to trial 
and been convicted. On February 15, 1963, Wright was sentenced to a 
prison term of not less than 15 years and not more than 30 years.
    At this point I'd like to take a break from Wright's crime 
chronology. I have read in numerous media accounts subsequent to 
Wright's arrest that Wright has stated that since he did not fire the 
shot that killed Walter Patterson he is not guilty of the crime of 
murder. Both of Wright's codefendants stated that in the immediate 
aftermath of this crime, Wright told them he had fired. Nine bullets 
from the sawed off rifle Wright carried were found on the floor of the 
service station
    The presiding judge at the time of Wright's sentencing went on the 
record stating that these nine bullets indicated Wright's intention and 
attempt to fire the weapon but that the weapon had malfunctioned. But 
regardless of Wright's intent, attempt, or belief that he had fired or 
that he had not fired it was the law of the State of New Jersey that if 
a person committing a robbery kills another or death ensues during the 
robbery that person is guilty of murder.
    I have also read that there should be some consideration as to the 
age of George Wright as he was but 19 years old at the time. Here it 
should be noted that Walter Patterson was barely a much riper 21 when 
he entered the US Army shortly after Pearl Harbor. Walter Patterson 
then served in the Army for 3 years and 7 months until after the war 
was over. Of his time in the Army, 2 and a half years was spent 
overseas in Europe.
    Let me return to the Wright time line. On August 22, 1970, Wright 
and others escaped from the New Jersey State Prison. At this time 
Wright had served 7 years, 7 months and 25 days. Wright has remained a 
fugitive from U.S. justice since this date.
    On July 31, 1972, Wright and 4 other adults (to include one of the 
persons who escaped prison with Wright) hijacked a Delta Airlines DC 8 
en route from Detroit to Miami. The hijackers were accompanied by 3 of 
their small children. Wright was dressed in the garb of religious 
clergy. Wright was the eldest and the leader of the hijackers. He 
wielded a handgun, gave the orders and issued the threats. He pointed a 
cocked weapon to the head of the airplane pilot, Captain William May. 
In Miami, Wright demanded one million dollars and threatened that if 
his demands were not met that he would toss bodies out of the plane.
    Wright and his fellow hijackers received the one million dollar 
ransom and they released approximately 80 passengers. The flight crew, 
however, was not released and they were forced to fly the plane and the 
hijackers first to Boston then on to Algiers, Algeria. Algerian 
authorities seized the one million dollars and the plane, returning 
them to the U.S. The hijackers however were allowed their freedom and 
eventually made their way to France. Wright and the other 4 adults were 
all indicted for Air Piracy in the United States on August 3, 1972. 
While in Algeria, Wright and the other hijackers made a videoed press 
statement and as part of the statement the speaker stated that they 
were revolutionaries. In May of 1976, 4 of the 5 hijackers, the lone 
exception being George Wright, were arrested by French authorities for 
the 1972 Air Piracy. In 1978, France tried these four for the Air 
Piracy and they were all convicted of the charge.
    And so to this day, Wright has not served his sentence for his 
homicide conviction nor has he been tried for the indicted charge of 
Air Piracy.
    My involvement in this matter began in 1994 when I reopened the New 
Jersey fugitive investigation regarding Wright. I worked it until my 
retirement in July, 2011. The United States Marshals and the New Jersey 
Department of Corrections joined the investigation in approximately 
2003. Since the case was reopened most all the techniques used in 
fugitive investigations were employed. These would include but not 
limited to interviews, both domestic and abroad, notification to 
international law enforcement, court orders, human intelligence, 
cooperation of foreign law enforcement, fingerprints and age enhanced 
images of George Wright were produced and disseminated worldwide. The 
United States Marshals commissioned the making of an age enhanced bust. 
All three agencies played a vital and significant part in the 
investigation and to my mind it was a model of organic, ad hoc 
interagency cooperation.
    In March of 2010, the Portuguese police notified the FBI legal 
attache in Madrid that they had positively identified the person living 
in Portugal under the name of Jose Louis Jorge dos Santos as George 
Wright. This they did unknown to Wright by the comparison of 
fingerprints they had on file for Santos with those of George Wright.
    In September of 2010, six months after a positive identification I, 
along with attorneys from the Department of Justice-Office of 
International Affairs met with Portuguese law enforcement and 
prosecutors in Lisbon, Portugal. The purpose of this meeting was for 
the United States to seek Portuguese legal input and to work together 
within the framework of the US-Portugal extradition treaty so that the 
United States might produce an extradition request with the greatest 
chance of success. I would characterize the meetings as both positive 
and productive. All parties agreed that the extradition could proceed 
for U.S. person George Wright. Further there was agreement that George 
Wright was using the made up name of Jose Santos and had provided false 
pedigree information to the Portuguese government as regards to his 
name, place of birth and parents. One issue remained unresolved. 
Portugal saw as a barrier to extradition Wright's exposure to a 25 year 
sentence of incarceration for an Air Piracy conviction. This they 
viewed as the equivalent of a death sentence and would therefore serve 
as a basis for denial of extradition.
    Well over a year passed since the positive identification had been 
made and this issue still proved intractable and no extradition request 
had been submitted to Portugal. In May of 2011, the decision was made 
to tender the extradition request to Portugal based solely on Wright's 
homicide conviction. I participated in this decision and supported it 
fully. This course of action was probably done at my instigation. 
Should it prove to be a bad call the fault is entirely my own.
    Portuguese law enforcement arrested George Wright in September of 
2011.
    Since his arrest, the Portuguese courts have denied the United 
States extradition request for George Wright. It is my understanding 
that the Court cited the following in their ruling:
        1.) Too much time had passed and that there must be a closure 
        to criminal cases
        2.) Wright's integration into Portuguese society demanded that 
        extradition be denied on humanitarian grounds. (Per DOJ, these 
        two reasons are not recognized as basis for denial of 
        extradition per the United States Portugal Extradition Treaty.)
        3.) The court ruled that Wright is a Portuguese citizen.
    Looking forward I would like to note the following.
    Each nation is free to choose its own criteria for citizenship. 
This is how it is and always should be. But it would also seem that 
each nation would have as its own self interest imposing the obligation 
upon those seeking naturalized citizenship to provide a true identity 
and true information. This obviously provides for the safety and 
security of a nation's citizens. George Wright provided false 
information to Portuguese authorities it would seem because he 
suspected that if he provided his true identity not only would 
citizenship not be conferred but that he would in all likelihood be 
arrested.
    In August 1972, George Wright was indicted on the criminal charge 
of Air Piracy. If one looks at the elements of the crime Wright 
committed, this same act committed today might be potentially charged 
as an act of terrorism, and for such a charge the United States-
Portugal Extradition Treaty provides for the extradition of one of it's 
citizens. It is in my opinion hard to imagine that it would be charged 
otherwise.
    Specifically with respect to George Wright, I've seen media 
accounts post arrest that suggest he has for some time led a good life 
and that he is in fact rehabilitated. This is perhaps a valid argument 
and he might have a case for such but there remains only one place that 
can decide if such an argument is valid and that is here in the United 
States where he committed his crimes in front of a court or parole 
board of proper jurisdiction. I would encourage George Wright to come 
and make his argument.

    Prepared Statement of Jonathan M. Winer, Senior Director, APCO 
       Worldwide, Former U.S. Deputy Assistant Secretary of State

    Mr. Chairman and Honorable Members of the Committee:
    As former Deputy Assistant Secretary of State for International Law 
Enforcement, I am honored to testify today to share my views regarding 
the international extradition system, and the options for the United 
States when the legal systems of other countries fail to meet the 
requirements of justice in connection with a legally proper extradition 
request from our country.
    During my tenure in the State Department, I had to deal with U.S. 
policies relating to extradition on many occasions, with regard always 
to one underlying goal--that the United States work always to secure 
justice regardless of the location of a criminal, and to do our best to 
prevent impunity for criminals anywhere, with a special focus on 
criminals whose victims were in the United States.
    I would like to begin my testimony with my assessment of the George 
Wright extradition case from a legal perspective.

1. The Portuguese Decision To Refuse Extradition Was Legally 
Indefensible Under Our Bilateral Treaty and Under International Law

    In brief, the reported decision by the Portuguese judge to refuse 
Wright's extradition to the U.S. is legally indefensible under the 
century-old U.S.-Portuguese Extradition Treaty, and under the 
principals of extradition law that apply internationally. Neither of 
the reported grounds for refusal--on statute of limitations ground and 
on the ground that he had later become a Portuguese citizen by 
marriage--are legally legitimate under such principles. Before escaping 
from prison and from the U.S. through a terrorist hijacking of an 
airplane, Wright had already been convicted of the murder of Walter 
Patterson in a trial that was full and fair. The statute of limitations 
does not run once one has been convicted of a crime--only when a 
country has failed to try a case while the facts are fresh. Similarly, 
a U.S. citizen such as Wright cannot legitimately be protected from 
extradition by claiming to be a citizen of another country. Some 
country's do limit extradition of natural-born citizens to another 
country, although the U.S. discourages this principle and does not 
apply it itself. But applying this principle to someone who has lied 
about their past, lied about their name, and arrived in a country such 
as Portugal as a fugitive is a fraud on all involved. The judge's 
decision on these two issues is legally wrong, morally unjust, and 
should be given no respect whatsoever by any government beyond that of 
Portugal.
    This analysis takes us to the core question you have asked me to 
consider--exploring the U.S. government's options for response. I would 
like to consider each in turn.

2. Get Portugal To Do the Right Thing 

    Portugal could still take action to meet its obligations to the 
United States and to secure justice in this case. Wright entered 
Portugal through fraud. He had no right under the country's immigration 
laws to enter the country under a false name, with a false nationality, 
as appears to have been the case. Based on the facts known, he engaged 
in immigration fraud to enter Portugal and to stay there. His marriage 
to a Portuguese woman was carried out fraudulently, under a false name, 
and with false information about his citizenship and birth. It appears 
that these facts were not known to Portuguese authorities until 2011. 
In such cases, under the principles of universally applicable 
immigration law, Portugal appears to have the right to revoke his 
citizenship, and to deport him. Were Portugal to take these steps, they 
could put him on a plane to the U.S. Or, even if Portugal simply 
dropped him on a train to somewhere else, the United States could 
secure his extradition from essentially any other country that received 
him, even ones with whom we do not have bilateral extradition 
relationships, under applicable multilateral agreements, such as the 
Palermo Transnational Organized Crime Convention.

3. Use Interpol, Europol, and Other International Institutions 
Aggressively

    George Wright is currently listed by the United States on 
INTERPOL's public wanted database as a fugitive. There is therefore a 
public ``Red Notice'' on him. However, the public notice notably is out 
of date and provides little information for others to use to arrest 
him. It does not state that he is living in Portugal, does not state 
his Portuguese name, Jose Luis Jorge dos Santos, does not list his 
current residence, the village of Casas Novas, just 25 miles from 
Portugal's capital. It also does not list any identity information, 
such as a passport, that he may be using for travel in the European 
Union or elsewhere. Every biographical detail that the U.S. government 
has on Wright should be provided to INTERPOL, with those necessary to 
help police and others track him down made publically available.
    The U.S. could also alert EU bodies, such as EUROPOL, about its 
goal of having Wright extradited. EUROPOL has the job of tracking down 
fugitives within the European Union, and while it is directly 
responsible to its EU members, it has capacities to track down people 
throughout the European Union.
    The FBI has a network of legal attaches throughout Europe, and 
these attaches, known as LEGATS, could also advise their counterparts 
of the U.S.'s current interest in Wright, with the goal of intensifying 
focus on him in the event he considers leaving Portugal.

4. Use the State Department Reward Program To Secure Private Assistance 
in Rendering Wright From Portugal

    The United States has had reward programs in place for the 
rendition of important fugitives back to the United States. When I was 
at the State Department, these reward programs focused on two principle 
types of defendants--major drug traffickers, and major terrorists. In 
some cases, we put their photographs and names on books of matches and 
distributed them in the countries where we knew they were located, on 
the belief that the rewards would motivate people who lived nearby to 
provide information to the United States on their whereabouts. 
Alternatively, a reward might lead to a citizen's arrest, in which the 
person making the detention would take actions to get the wanted person 
to U.S. authorities in a location where the U.S. officials could hold 
the fugitive and get them into U.S. custody.
    During the Clinton Administration, in which I served, this was 
known as a ``special rendition,'' and it was authorized under a number 
of circumstances, especially involving terrorists and murderers. The 
Justice Department policy for many years under a succession of 
Administrations has been to take the view that we will not inquire into 
the circumstances of a fugitive's rendition to the United States.
    This approach has been upheld by the Supreme Court. In United 
States v. 
Alvarez-Machain, 504 U.S. 655 (1992), the Supreme Court ruled that a 
court has jurisdiction to try a criminal defendant even if the 
defendant was abducted from a foreign country against his or her will 
by United States agents.
    I note that hijacking an airplane and holding a gun to the head of 
a flight attendant, as Wright has confessed to doing to effectuate his 
escape from the United States, is a terrorist offense under multiple 
relevant international conventions of essentially global applicability, 
including an offense recognized by Portugal.
    The Justice Department's internal procedures expressly allow the 
use of bounty-hunters and rewards. As stated in the US Attorneys' 
Manual:

        Due to the sensitivity of abducting defendants from a foreign 
        country, prosecutors may not take steps to secure custody over 
        persons outside the United States (by government agents or the 
        use of private persons, like bounty hunters or private 
        investigators) by means of Alvarez-Machain type renditions 
        without advance approval by the Department of Justice. 
        Prosecutors must notify the Office of International Affairs 
        before they undertake any such operation. If a prosecutor 
        anticipates the return of a defendant, with the cooperation of 
        the sending State and by a means other than an Alvarez-Machain 
        type rendition, and that the defendant may claim that his 
        return was illegal, the prosecutor should consult with OIA 
        before such return.

5. Use a Lure To Get Wright To Leave Portugal

    The United States government is authorized to use lures against 
foreign fugitives. A lure is a subterfuge to entice a criminal 
defendant to leave a foreign country so that he or she can be arrested 
in the United States, in international waters or airspace, or in a 
third country for subsequent extradition, expulsion, or deportation to 
the United States. As the Justice Department Attorney Manual explains, 
``lures can be complicated schemes or they can be as simple as inviting 
a fugitive by telephone to a party in the United States.''
    There are a wide range of possibilities with a lure, which in light 
of Portugal's location could involve the cooperation of officials in 
nearby jurisdictions, and could involve lures on land or sea, as well 
as in airspace. In order not to give Wright further clues about how the 
U.S. might go about this, I will provide no further details on these 
possibilities, other than to note that for the rest of his life, he 
will need to suspect absolutely everyone of being a potential lure, 
ready to betray him to justice in the United States.

6. Undertake an Extraordinary Rendition

    In responding to terrorism, the United States has long been willing 
to undertake extra-judicial measures on its own, as it did decades ago 
against the Achille Lauro hijackers who murdered Leon Klinghoffer by 
throwing him into the ocean from his wheel-chair.
    Such actions, in which U.S. government officials authorize direct 
action to capture a terrorist, can involve many different mechanisms. 
In some cases, such as the US Navy Seal operation that killed Osama bin 
Laden, the authorization may be to capture or kill the terrorist, as 
circumstances dictate. In other cases, the authorization may only 
extend to a capture of the wanted person. In principle, the U.S. 
government could choose to undertake a covert operation to snatch 
Wright as he is going about his day-to-day business, and to bring him 
to the United States to serve out his murder sentence, and if the law 
permits, to try him on his terrorist hijacking.
    Notably, the use of bounty-hunters, lures, and extraordinary 
rendition could well provoke significant protests on the part of the 
government of Portugal. There are precedents for those involved in 
these types of activities to become subject to criminal investigations 
and indictments in the country in which the fugitive is living. A 
successful extra-judicial rendition can also spark direct government-
to-government protests which can chill a bilateral relationship for 
years, as happened between Mexico and the U.S. in connection with the 
Alvarez-Machain case.
    Such risks must be taken into account by private persons involved 
in an extra-legal ``snatch'' of a fugitive and by U.S. officials when a 
rendition is the result of directed U.S. policy and activities.

7. Apply Treasury OFAC Sanctions to Wright and Those Who Assist Him

    The United States has active economic sanctions against terrorists, 
administered through the Office of Foreign Asset Control (``OFAC'') at 
the U.S. Department of the Treasury. These sanctions are imposed 
against foreign threats who engage in activities, such as terrorism, 
that pose serious threats to U.S. national security. While Wright is a 
U.S. citizen, he is now located in Portugal and for the time being, is 
viewed by Portugal as a Portuguese citizen. Accordingly, the U.S. could 
designate Wright as a terrorist under OFAC sanctions, making it illegal 
for any U.S. person to engage in any transaction with him, and freezing 
any assets that he may have in any U.S. financial institution.
    Although other countries need not apply such sanctions to a person 
designated as a terrorist by the U.S. by OFAC, in practice, sanctioned 
persons face difficulty in undertaking financial transactions at any 
major financial institution, anywhere, due to automatic OFAC screening 
put into place by any bank that has contacts with U.S. financial 
institutions. Sanctions may be particularly appropriate in this case, 
as Wright has stated publicly that he hopes to write a book about his 
life. U.S. imposition of terrorist sanctions against him would make it 
much more difficult for him to sell the book and to profit off his 
crimes, and might make it possible for profits from the book to be 
seized by the U.S.

8. Put Bilateral Pressure on Portugal Through Limitations on Other 
Bilateral Programs and Activities, Such As in the Law Enforcement or 
Security Sphere 

    In principle, the U.S. could undertake steps to punish Portugal for 
its court's unjust refusal to extradite Wright. However, in the case of 
Portugal, such steps would likely frustrate rather than facilitate 
justice. To begin with, it would appear to be fundamentally unfair. The 
failure to extradite Wright was the decision of an independent local 
judge, not Portugal's government as a whole, its justice ministry, or 
its other law enforcement components. The U.S. and Portugal work 
closely on military issues, which include support for U.S. forces 
deployed throughout Europe, the Middle East, Asia, and Africa, as well 
as counterterrorism, humanitarian, and combat operations in Afghanistan 
and Iraq. U.S. law enforcement work daily with Portuguese counterparts 
on a range of activities of deep importance to the security of both 
countries. It would almost surely be counterproductive to place this 
cooperation at risk through generalized sanctions, restrictions, or 
constraints against directed at Portugal to apply pressure to secure 
Wright's return to the United States.
    That said, our Ambassador to Portugal, our law enforcement and 
intelligence agencies, and the State Department and Justice Department 
generally, can continue to raise this issue as one that needs to be 
resolved, inviting positive steps by Portugal, such as denaturalization 
and deportation, with the goal of securing justice for Walter 
Patterson, and for all of those victimized by Wright's criminal and 
terrorist activities.

9. Beyond George Wright--Securing Justice Globally

    For many decades, the U.S. government has worked to build a global 
array of tools to extradite or otherwise secure the return to the U.S. 
of fugitives, regardless of their location. These policies are 
sensible, and broadly serve the interests of the American people and of 
justice. There is nothing wrong with the international instruments and 
mechanisms we have in place. However, it is inevitable that in some 
particular cases, an extradition will fail and justice will be denied.
    In such cases, as my testimony highlights, the U.S. has a set of 
graduated tools it can use to secure justice regardless.
    Which of these tools will be most applicable in any particular case 
depends on the circumstances of the case, the governments involved, the 
attitude of the foreign government to the case, and a host of important 
institutional equities, such as bilateral cooperation on other security 
and law enforcement matters.
    The Congress could strengthen the Executive Branch's ability to 
analyze and apply these tools and to consider whether it has other ones 
through encouraging ongoing interagency consideration of the problems 
of failed extraditions. It was my experience that interagency 
discussions of such issues tended only to arise in an ad hoc fashion, 
relating to particular cases or particular bilateral relationships. A 
Congressional mandate that the President, in consultation with the 
Secretary of State and Attorney General, provide an annual report on 
extraditions to Congress covering such issues as total extraditions, 
number of extraditions refused, reasons for refusal of extraditions, 
and steps taken by the U.S. in response to a refused extradition, might 
provide for further focused attention on these issues by both the 
Executive Branch and by Congress, thereby facilitating and vindicating 
the goal of securing justice for all. I understand that any 
Administration might resist putting such information in one place due 
to its desire to protect confidential intelligence, diplomatic and law 
enforcement programs, activities, and relationships. For that reason, 
the Committee may wish to consider structuring any such reporting 
mandate to provide for a public report that provides statistical data 
and information on completed matters, with a classified appendix to 
cover matters that are ongoing or otherwise necessarily secret.

10. Conclusion: A Fugitive Can Run, But Cannot Hide, From Justice

    George Wright has expressed his relief at not being returned to the 
United States to serve out his prison sentence, and being allowed to 
spend the remainder of his life with his wife and his grown children, 
while profiting off his crimes by writing a book about them.
    Walter Patterson and his family have been denied such pleasures by 
Wright due to decisions he took of his own volition, without regard for 
the consequences to anyone else.
    In this case, and in other cases like this, it should be the policy 
of the United States to take appropriate steps to make sure that 
murderers and terrorists, wherever located, can never breathe the sigh 
of relief that they have reached safety as a result of out-lasting law 
and justice.
    Which of those steps should be taken in this case will depend on 
the consideration by those in the U.S. government with the most 
knowledge of the facts about what will best secure justice here. The 
Committee may contribute to that process through ongoing dialogue with 
those who have those current responsibilities.
    I am available to respond to any questions you may have.

    For the Committee's background, I am currently a Senior Director at 
the Washington strategic communications firm of APCO Worldwide, where I 
provide strategic advice on a range of issues from financial services 
regulation to foreign investment and trade, consumer regulations, 
congressional investigations, data protection, foreign corrupt 
practices, energy policy, information security, money laundering, 
national security and sanctions. At the State Department, I was one of 
the architects of U.S. international policies and strategies on 
promoting and harmonizing financial transparency, as well as on cross-
border law enforcement issues. I led negotiations on these and related 
issues with the European Union and the Organization of American States, 
as well as bilaterally with China, Cyprus, Hungary, Israel, Lebanon, 
Nigeria, Poland, Russia, Thailand and numerous other countries in 
Europe, Latin America, Southeast Asia and Africa. I previously served 
for 10 years as chief counsel and principal legislative assistant to 
U.S. Senator John F. Kerry, handling and drafting legislation 
pertaining to financial regulation and working with the Senate 
committees on foreign relations and banking. During that time, I helped 
conduct a series of congressional investigations, including the 
investigation of the Bank of Credit and Commerce International from 
1989-1992. In November 1999, I received a distinguished honor award 
from Secretary of State Madeleine Albright for my service at the State 
Department. The award stated that I ``created the capacity of the 
Department and the U.S. government to deal with international crime and 
criminal justice as important foreign policy functions,'' and that 
``the scope and significance of his achievements are virtually 
unprecedented for any single official.''
                        M A T E R I A L    F O R

                          T H E    R E C O R D

=======================================================================

                           Table of Contents

    <bullet>  Photograph of Walter Patterson

    <bullet>  DD-214/Honorable Discharge Certificate (copies)

    <bullet>  Statements for the Record
            Statement 1: Granddaughter 12/28/2011
            Statement 2: Granddaughter (no date)
            Statement 3: Granddaughter (no date)
            Statement 4: Granddaughter (no date)

    <bullet>  Impact Statement sent to Portuguese Judge from Ann 
Patterson--Includes ``Impact of Crime on my teen and adult years'' list

    <bullet>  Letter from The Honorable Frank R. Lautenberg (NJ) to The 
Honorable Pedro Passos Coelho, Prime Minister of the Portuguese 
Republic (12/05/2011)

    <bullet>  Letter from Ann Patterson to Secretary Clinton (01/10/
2012)

    <bullet>  Response letter from Department of State (Thomas 
Heinemann) to Ann Patterson (06/19/2012)

    <bullet>  Letter from Ann Patterson to Attorney General Holder (03/
06/2012)--with attached article from the Asbury Park Press ``Instead of 
Extradition, possible movie deal''

    <bullet>  Response letter from DOJ (Ronald Welch) to Sen. 
Lautenberg/Ann Patterson

    <bullet>  Article: ``Aren't They Cute?: America and some special 
criminals'' National Review

    <bullet>  Newspaper Coverage List 
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
         Prepared Statement of Walter Patterson's Granddaughter

December 28, 2011

To whom it may Concern:

    I am not sure I will ever know the full impact of never meeting my 
grandfather, Walter Patterson, but, I can speculate how things could 
have been. I imagine that he would have spent time with his 
grandchildren as we grew up; visiting us, playing with us, spending 
holidays with us, going to our weddings, and meeting his great-
grandchildren. I am sure he would have told us his war stories and life 
adventures, but we will never know his story as told by Walter 
Patterson.
    If my grandfather hadn't been murdered, I think my grandmother 
would have lived longer to enjoy the above mentioned activities with 
her grandchildren. George Wright took both of them away from us. Even 
though George Wright denies firing shots, it was not a bullet that 
killed my grandfather. He died from severe head trauma--trauma 
inflicted on my grandfather by George Wright. Beating a man who was a 
decorated World War II veteran while he was down is a cowardly act. 
It's time for George Wright to grow up and be a man and face punishment 
for the violent, disgusting crime he committed. Wright chose his 
actions, now he needs to pay the price for them.
    One of the biggest impacts of living without my grandfather was 
financial hardship. He was a gas station owner who probably would have 
had financial security to pass along to my mother. Instead, she had her 
father and all that he had to offer taken away. My mother had to start 
with nothing; therefore times were extremely difficult for us as we 
grew up. I started babysitting and taking care of neighbors' pets when 
I was in 5th grade to earn some money. I used that money to buy a car. 
As soon as I was old enough to drive, I went to work after school each 
day and on weekends to pay for car insurance, gas and clothes. If I 
needed something, I knew I had to pay for it. After high school, I had 
to work two jobs while going to college full time. I had to pay my own 
tuition. I had to pay for my own wedding. My parents simply didn't have 
the means to help their children with these things.
    If my grandfather had been alive, he could have watched us when we 
were little so my mom could have gone to work to help out financially. 
My parents did the best they could just to put food on the table for 
us. My dad hunted so we ate a lot of venison. There were no ``extras'' 
or luxury items. We wore hand-me-downs and were taught to be happy with 
what we had. My parents wouldn't have needed to struggle if my 
grandfather had been here to help. My grandfather wasn't here to help 
due to George Wright's senseless crime.
    Whatever happened in the hospital when my mom went to see her 
father as he was dying caused her to not be able to go to hospitals 
anymore. She has eleven grandchildren that she was unable to see when 
they were born--not until they came home. My daughter was in the 
special care nursery for ten days when she was born. Luckily she was 
ok, but my mom may have never seen her granddaughter alive. I split my 
head open as a child, and had to wait for a ride to the hospital to get 
stitches because my mom couldn't take me to the hospital and my dad was 
at work. He worked as many hours as he could just to make ends meet.
    It is difficult to speculate how things would have been if my 
grandfather hadn't been murdered, but his presence could have only made 
life easier and better for all of us. George Wright turned my mother's 
life upside down, and five generations of the Patterson family have 
been negatively affected. Wright has lived a full life while my 
grandfather's life was senselessly taken away. Wright should be 
thankful for the time he has had with his family. At least he has the 
opportunity to say goodbye to his wife and kids as he leaves to serve 
his sentence. My grandfather wasn't given that courtesy. George 
Wright's fate is a result of his own choices and actions. My 
grandfather was an innocent man trying to make an honest living. He 
fought for our country and for our freedom. In return, he was beaten to 
death by George Wright. Please provide justice for my grandfather, 
Walter Patterson, and extradite George Wright to the United States to 
finish serving his sentence for the brutal beating and murder of my 
grandfather. Thank you for your time and consideration.

        Sincerely, Walter Patterson's granddaughter

         Prepared Statement of Walter Patterson's Granddaughter

    I have been asked to describe how George Wright's crime in 1962 has 
affected my life.
    George Wright and his accomplices robbed, beat, and murdered my 
grandfather, Walter Patterson, in November 1962. My mother and her 
sister were young teenagers at that time and were completely devastated 
by the loss of their beloved father. My grandmother had to go forward 
to raise them, alone, and never recovered from her broken heart. She 
died in 1964.
    The family could take small comfort in the fact that Wright was 
convicted and sentenced for this heinous crime. While it did not bring 
my grandfather back, knowing his murderer would be imprisoned surely 
brought relief, even though it could not bring closure. My mother and 
her sister nevertheless went ahead with their lives, getting married 
and starting their own families, but there was always something dark 
and secret about the family history. They preferred not to speak of 
their pain and of the hole their father's death left in their lives, 
but they had to confront their grief all over again when Wright escaped 
jail, hijacked a plane, and fled the country. The family lived in fear 
that he would be back to seek revenge. My cousins and I were very young 
children at this time; my sister and two cousins had not yet been born. 
We were fortunate to not know what was going on while the media 
followed Wright's plane hijacking, but my. mother and her sister were 
reminded of this man who had taken their happiness from them, and the 
cycle of grief started all over again.
    Years passed and what had happened to Grandfather Patterson and how 
he suffered was never spoken of. We knew it was not a topic open for 
discussion, and lived up until October 2011 knowing only that he had 
been robbed and died of his gunshot wounds. Imagine the horror and fear 
when seven grandchildren, now all grown with children of their own, 
learned the shocking details. My cousins, sister and I grieved this man 
we never knew like the death had just occurred. And because it remains 
a raw nerve for my mother and her sister, we still do not discuss it to 
spare their feelings.
    Each grandchild has wondered what life would have been like had our 
grandfather lived. No doubt many of our life circumstances would have 
been different if we'd had his guidance and support. There was no 
grandpa to spend time with, learn from, love. Not knowing this 
important member of our family has been hard enough, but knowing he was 
murdered and that his murderer walks free in Portugal brings feelings 
that are difficult to describe. There is the sense that justice has 
failed us, that justice has forgotten the gentle, hardworking, World 
War II veteran, husband and father, respected member of the community, 
and we would like to respectfully remind justice that we will not and 
cannot forget George Wright's crime against our family. We respectfully 
demand that he be brought back to the United States to serve the 
remainder of his sentence. My grandfather's life is worth that.

        Walter Patterson's Granddaughter

         Prepared Statement of Walter Patterson's Granddaughter

    November 23, 1962 changed the lives of many people, as the result 
of the actions of a few. A brave, hardworking World War II veteran was 
gunned down for $70.00. Such a senseless murder! The result of this 
incident has had an incredible impact on many people. His children were 
left fatherless, his wife became a widow and his grandchildren only 
knew him by a picture that hung in a dining room. He never met his 
seven grandchildren or his fourteen greatgrandchildren.
    What is the true impact of his death? No one really knows because 
the option of having him around was taken away. What would be different 
had Walter been around to oversee things and help make decisions? These 
questions can be asked over and over and no one will ever know the 
answer. Perhaps George Wright would know the answers to these 
questions. After all, he was responsible for that tragic night in 
November. George is still here, alive and breathing, spending time with 
his family, sharing holidays and laughs. Does he ever think about his 
actions on that fateful night? Does he ever regret the crime, or just 
regret getting caught? Does he care at all about the people who will 
never hear Walter speak, ask him for advise or see him smile?
    Walter Patterson was my Grandfather. I never had the benefit of 
spending even one minute with him. He was killed seven years before I 
was born. What I have experienced is: a mother who lost her father way 
too young, a mother whose father wasn't at her high school graduation 
and a mother who had no one to walk her down the aisle. There is a huge 
void where my grandfather should be. What exactly is that void? I don't 
know--and I will never know. So much time has gone by, full of so much 
pain. Thank you.

        Walter Patterson's Granddaughter

         Prepared Statement of Walter Patterson's Granddaughter

    ``Get away with murder''. To some it's just an expression, but to 
others a reality. Forty-nine years ago, a little girl of 14 years old 
received a horrifying phone call. On the other end was a distratight 
family member calling to notify a woman that her husband had been 
brutally attacked and shot. The 14 year old was the recipient of this 
message, and was told nothing except ``Walt's been shot''. Walter was 
her father, who, 2 days later had vanished from her life forever.
    It sounds like a movie or story line for a perfect mystery book 
series. To my family and myself it's the harsh reality of the world we 
live in. My mother is that 14 year old girl, and Walter Patterson is 
the grandfather I never met. From what I understand and conclude from 
stories told, he was a hard working family man. He had risked his life 
in the U.S. Army, fighting for the freedom of the people in the country 
in which we reside. Going to battle and sustaining injuries during 
combat isn't what took him from his family. It was the appalling choice 
of some of the very Americans he was fighting for. It was a moment that 
would change the lives of many people.
    On the night of November 23, 1962, Walter Patterson was working at 
a gas station he ran. It was an innocent night's work, and he was 
making a living to provide for his family, who consisted of a wife and 
two young daughters. When a car of 4 individuals pulled around the back 
of the shop, an average workday would soon take a turn for the worse. 
Little did my grandfather know, he'd soon be faced with individuals 
garbed with stockings on their heads, and equipped with guns in their 
hands. What began as a robbery ended in murder. The individuals who set 
out with the intentions of killing had succeeded. Luckily, our justice 
system had been victorious in apprehending these individuals, and 
convicting them for the crime they committed.
    Walter Patterson can't be brought back to watch his two daughters 
blow out their birthday candles, hang Christmas lights with his family, 
or carve the Thanksgiving turkey. He would never be able to participate 
in daddy-daughter dances, walk his daughters down the aisle on their 
wedding day, or enjoy the births of their children, but at least the 
creatures responsible for this would pay for what they've done ... or 
would they?
    Seven years of a prison sentence was apparently all that one of 
these cowards, a man by the name of George Wright, could handle. As if 
choosing to participate in a murder wasn't enough of a poor choice, his 
life of crime wouldn't stop there. Mr. Wright had the brilliant idea to 
steal the prison warden's car to make his great escape. Being a 
criminal obviously came easy to this individual, because his law 
breaking actions didn't stop there. What does a convicted murderer do 
after he breaks out of prison? Well, this particular criminal chose to 
expand his criminal record by hijacking a passenger plane, putting yet 
more lives at risk, and making a mockery of the F.B.I. He managed to 
collect one million dollars in ransom money, which he demanded be 
delivered by F.B.I. agents in their underwear or swimsuits. One would 
think if this murderer were to be caught, he'd really be in serious 
trouble with all the law breaking actions he carried out.
    For many years, George Wright lived his life. He even got married 
and had a family of his own. Were the images of a beaten and shot man 
ever present in his mind? Did he ever think about the lives of those 
family members that were torn apart on that day that he chose to act 
like a man of no feeling or regard for human life? When he was counting 
his illegally obtained million dollars was he picturing 2 young girls 
standing over a coffin painfully watching their young, brave father be 
buried?. Was he thinking of the young single mother who was left to 
deal with her newly broken family? I doubt it, and George Wright was 
actually running like a coward while conspiring about how he would be 
able to live the good life himself. No conscience, remorse, or regret 
has ever been evident by this individual's actions. He must have felt 
he had something to hide, proven by the fact that he illegally and 
unofficially changed his name and remained in a country half a world 
away from where he destroyed Walter Patterson and his family.
    Forty-one years have passed by. After diligent searching and a 
refusal to put this case file back in the file cabinet, the F.B.I. was 
hopeful that they had found this murderer and fugitive. That 14 year 
old girl who received that devastating phone call is now 63 years old 
and has received yet another phone call regarding the murder of her 
father. Only this time, the phone call is of a positive nature. The 
news of this armed robber, murderer, prison escapee, plane hi-jacker, 
and fraud being caught seems surreal. After all these years, this man 
will finally pay the price for the crimes he chose to commit. The life 
of Walter Patterson can't be brought back. Knowing that justice will be 
served and that George Wright literally won't get away with murder, 
will help to close the door on the devastating chapter of Walter 
Patterson's families lives.
    Protecting and hiding a known, convicted criminal is considered a 
crime in itself. Portugal, the place in which George Wright chose to 
flee to and hide out at, like the coward he is, chose to protect him by 
refusing extradition. How can an average individual be punished for 
hiding out a criminal, yet here you have the government of a country 
harboring this fugitive and getting away with it? When this news hit 
our family, many emotions were felt. The feelings of anger, sadness, 
and frustration are overwhelming. A convicted killer and fugitive has 
been caught, but is being protected from the law. The rationale is that 
he is now a Portuguese citizen, and therefore they feel the need to 
protect him. Never mind the fact that Walter Patterson had no 
protection from this individual's hands, but in hindsight, is George 
Wright even a legitimate Portuguese citizen? He used criminal acts to 
access the country, and used a fraudulent family background and name to 
obtain his so-called citizenship. George Wright has not become a 
Portuguese citizen but rather the pseudo-individual he created has. One 
would think a government would want to rid their country of crime and 
corruption, but Portugal is protecting an individual who has brought 
these things to them.
    Portugal isn't the only country to blame for this monster having 
the ability to move on with his life, as if his hands were not a murder 
weapon at one time, as if his own mind didn't tell him to conunit the 
various crimes of a hateful, malicious monster. The very country that 
Walter Patterson received numerous medals for protecting is 
contributing to George Wright literally getting away with murder. The 
country in which immigrants travel far and wide to reach to obtain a 
``better'' life for themselves, our very own United States of America, 
has given up on one of its own. The decision has been made that a human 
life that was taken illegally by the hands of another isn't worth 
pursuing justice for. Members of our Attorney General's office have 
decided that no more appeals are necessary in the attempt to extradite 
this convicted murderer so justice can be served. It would be very 
interesting to see if this same decision would be made if the 
individual who was prematurely buried carried one of their last names. 
This war veteran fought for the freedom of citizens of the United 
States. The government was unable to protect him from George Wright 
while he was still alive. The least that the United States could do is 
return the fight that he gave and express the need to have this man 
brought back to where this crime was committed. In public schools 
across the nation, hundreds of students and staff proudly recite the 
Pledge of Allegiance. It would be reassuring to know that these 
aren'tjust words, but actually have true meaning and that our country 
stands by the last line of this pledge. If nothing else, this country 
should have the ambition to send the message that the United States is 
just that--UNITED.
    Thank you for your time.

        Walter Patterson's Granddaughter

      Impact Statement Sent to Portuguese Judge from Ann Patterson

December 27, 2011

Your Honor,

    My name is Ann Patterson, and I am the daughter of Walter 
Patterson, who was robbed, beaten, shot, and left for dead at his gas 
station on November 23, 1962. He succumbed to these injuries on 
November 25, 1962.
    George Wright is one of the men involved in this crime. This has 
impacted my life twice--once when I was a child of 14 and then again 
this year as we have had to relive these events all over again.
    In 1962, there was no counseling. The world suddenly became a scary 
place. My mother was not well and could not take care of us. We did not 
know how we were going to get food, pay the bills, or get anywhere 
except for school. The custody services wanted to remove us from our 
home. My mother's brother told them that he would look in on us every 
day and we were allowed to stay with our mother until school was out. 
On the last day of school, we took our clothes and moved in with our 
uncle and aunt. My mother passed away fifteen months after my father.
    I never did get over the fear of being out in the world. I have 
ever worked a full time job, I did not want to work where there was a 
possibility of being robbed and hurt. I do not stop at the gas station 
to put gas in the car. My husband has to do that. I do not go far from 
home and do not travel alone. These are real fears for me.
    Going through this again has opened up the wound and brought up all 
those old feelings, but worse than before. I can't sleep; I relive the 
crime itself and cannot get the image out of my mind of my father lying 
on the floor of his gas station with three men standing over him 
beating him up. The image of George Wright hitting him with the stock 
of his gun so hard that they can identify Wright by these marks left on 
my father is particularly distressing.
    My stomach is constantly upset and I have lost ten pounds. I try to 
eat one good meal a day even though I feel nauseous.
    This has all taken its toll on my family as well, not just with the 
time involved with the media but also that I cannot keep up my duties 
as a wife, mother, grandmother, and babysitter.
    My life has been derailed twice because of this crime and now it 
will take some time to get over the effect of it yet again. I am now 
seeing a counselor.
    I was only 14 when my father was taken from us. I was the last one 
in our house to tell him ``goodbye'' and wave to him as he drove off to 
work. It was the day after Thanksgiving. Every year, the calendar 
reminds me of losing Daddy when we get near Thanksgiving.
    When the phone rang that night and I answered, my aunt said, 
``Walt's been shot'', I started crying as my mother took the phone. She 
got a ride to the hospital while we (my sister and I) stayed home - 
afraid to be alone. When my mother got home the next morning, she said 
that she couldn't recognize Daddy; that they had beat him up very 
badly. The doctors operated for eight hours that night on Daddy's head 
and one of them told my mother that he ``thought he had gotten out all 
of the bone fragments''. They also had to wire his jaw shut. They could 
not give him anything for pain due to the head trauma and had to tie 
him down in the bed. The doctor told my mother that Daddy would 
probably have a seizure from this head trauma and he did the next 
night. He would also never see again. The doctor said that if he 
survived, he would be a vegetable and need a lot of care.
    My father was unrecognizable in his casket. I knew it was him by 
looking at his hands. Everyone said now he wouldn't suffer any longer 
and that he wouldn't have any more pain.
    George Wright has said that he was not the shooter. He has taken 
responsibility for the beating, it was brutal and unnecessary beating 
that killed Daddy. If there had not been a beating, then the doctors 
could have operated on the bullet wound and Daddy would have recovered.
    George Wright has a dark past and hidden his life from a lot of 
people, living a life of lies. He is a convicted murderer and now his 
past has caught up with him. It is time for him to come back to the 
United States and face the justice he has managed to escape from for so 
long. I was disappointed at the first and second ruling, but I am 
hopeful that the Portuguese government will be helpful in achieving 
justice for Daddy.

                Sincerely, Ann Patterson

         Impact of Crime of My Teen Years and Young Adult Years

    1) No Daddy at high school graduation.
    2) Had to walk 2 miles to work packing eggs and babysitting.
    3) Worked 30 hours a week during senior year in high school to earn 
enough money to buy a car and insurance. Took the bus, then walked the 
rest of the way.
    4) Went without the encouragement and support a father gives.
    5) Got first asthma attack 6 weeks after Daddy's death when I was 
upset thinking about his death.
    6) No Daddy to walk me down the aisle at my wedding.
    7) My 5 children were deprived of the kind, loving, smiling 
grandfather that makes a child's life more complete.
    8) Hastened my mother's death.
    9) Almost had to live in a state institution.
    10) Watched my great uncle starve himself to death. He lived in our 
house and, when told about Daddy's death, said, "I don't want to stay 
in a world where this is allowed to happen". He never ate another 
morsel of food and died a couple of months later. His wife died 5 
months after he did.
    11) In 15 months, we experienced the deaths of all 4 adults we 
lived with and lost our home.
    12) Could not grieve Daddy's death as we had to be strong for our 
mother. Stoically went through teen years emotionally numb. 

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

             Letter From Ann Patterson to Secretary Clinton

Jan. 10, 2002

Dear Mrs. Clinton,

    My name is Ann Patterson and I am the daughter of Walter Patterson. 
My father was beaten, robbed and shot at his gas station in Wall 
Township, New Jersey on November 23, 1962. He died of his injuries on 
November 25, 1962. One of the men responsible, George Wright, escaped 
from prison in 1970 and he jacked a plane in 1972. The FBI and U.S. 
Marshals recently found him in Portugal and then requested his 
extradition to the U.S. to serve out the rest of his 15-30 year 
sentence. The extradition was denied and the U.S. is appealing that 
decision. I understand that the U.S. has an extradition treaty with 
Portugal.
    I was just 14 when I lost my father. He was a decorated World War 
II veteran who just wanted to earn a living and support his family. He 
worked 10-15 hour days at his gas station. My mother, already ill with 
a heart condition, passed away 15 months later leaving my sister and me 
orphaned.
    Just as I felt helpless in 1962, I feel that way now after the 
extradition was de4nied. Can you do something for the Patterson family 
to bring about justice for my father?

                Thank you for your consideration. 
              
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]             
                
                        Newspaper Coverage List

Ashbury Park Press

            Wed. Sept. 28, 2011 p.1
            Thurs. Sept. 29, 2011 p. A15
            Fri. Sept 30, 2011 p. A8
            Sat. Oct. 1, 2011 p.1
            Sun. Oct. 15, 2011 p. A4
            Fri. Nov. 18, 2011 p.A5
            Sat. Nov. 26, 2011 p. A1
            Wed. Nov. 30, 2011 p. A12
            Fri. Nov. 31, 2011
            Sat. Dec. 31, 2011 p. A13
            Tues. Jan. 17, 2012
            Thurs. Feb. 2, 2012 p. B 4
            Sun. Feb. 5, 2011
            Thurs. Mar. 1, 2012 p. 13
            Fri. Mar. 2, 1012 p. A14
            Sun. Mar. 11, 2012 letter to the editor
            Thur. Mar. 15, 2012 p. A17
            Wed. Mar. 28, 2012 p. A 16

Community Report
            Thurs. Dec. 1, 2011 p. 1

Daily News
            Wed. Sept. 28, 2011 p. 12

New York Times
            Thurs. Sept. 29, 2011 p. 1

Star Ledger
            Wed. Sept 29, 2011 p. 1
            Tues. Nov. 22, 2011 p. 1
            Sun. Mar. 11, 2012 Sec. II p. 1

Gentleman's Quarterly,
            May, 2012 p. 134

National Review
            May 14, 2012 p. 22

                                 [all]



  

                                     
                 This is an official publication of the
                       Commission on Security and
                         Cooperation in Europe.

                <SUP><</SUP> <SUP><</SUP> <SUP>< </SUP>

                This publication is intended to document
                developments and trends in participating
                States of the Organization for Security
                   and Cooperation in Europe (OSCE).

                <SUP><</SUP> <SUP><</SUP> <SUP>< </SUP>

               All Commission publications may be freely
               reproduced, in any form, with appropriate
                   credit. The Commission encourages
                   the widest possible dissemination
                          of its publications.

                <SUP><</SUP> <SUP><</SUP> <SUP>< </SUP>

                 http://www.csce.gov     @HelsinkiComm

                   The Commission's Web site provides
                  access to the latest press releases
                  and reports, as well as hearings and
              briefings. Using the Commission's electronic
                 subscription service, readers are able
                  to receive press releases, articles,
               and other materials by topic or countries
                        of particular interest.

                        Please subscribe today.
</pre></body></html>
